APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (December 8, 2020) ................ 1a
Memorandum Opinion of the United States
District Court for the District of New Jersey
Filed Under Seal [Unsealed]
(January 7, 2020).............................................. 12a
Memorandum Opinion of the United States
District Court for the District of New Jersey
Filed Under Seal [Unsealed]
(July 31, 2019) .................................................. 17a
Order of the United States District Court for the
District of New Jersey (July 31, 2019) ............ 37a
Memorandum Opinion of the United States
District Court for the District of New Jersey
Filed Under Seal [Unsealed] (May 31, 2019) .. 39a
Order of the United States District Court for the
District of New Jersey Granting Defendants’
Motion for Summary Judgment
(May 31, 2019) .................................................. 78a
OTHER DOCUMENT
Article By Jonathan Carr in WeatherNJ.com
(June 25, 2015) ................................................. 80a

App.1a
OPINION* OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(DECEMBER 8, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS; ISARITHIM LLC,

Appellants,
v.
JONATHAN P. CARR; SEVERE NJ WEATHER, LLC,
D/B/A WEATHER NJ; WEATHER NJ,
LLC, D/B/A WEATHER NJ.
________________________
No. 20-1238
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 3:15-cv-06913)
District Judge: Honorable Michael A. Shipp
Before: HARDIMAN, SCIRICA, and RENDELL,
Circuit Judges.
HARDIMAN, Circuit Judge.
Michael Konowicz appeals the District Court’s
summary judgment in favor of Jonathan Carr and
* This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App.2a
affiliated entities. We will affirm in part and reverse
in part.
I
Konowicz and Carr are weather aficionados and
rivals. A self-described “professional, accredited meteorologist,” App. 21, Konowicz maintains a website and
various social media platforms, operating under the
name “theWeatherboy.”1 He has a Certificate in Broadcast Meteorology from Mississippi State University
(MSU) and is a member of the American Meteorological
Society (AMS). Carr describes himself as an amateur
weather enthusiast. Since 2010, he has operated
Weather NJ (formerly Severe NJ Weather), which provides online weather forecasting services through its
website and social media platforms. Carr has some
225,000 followers as a result of his forecasting hobby.
This federal case arises out of social media barbs
between Carr and Konowicz. From December 2014 to
June 2015, Carr wrote a series of Twitter posts
attacking Konowicz’s education, qualifications, and
experience. Carr also published an article, Beware of
the fake “Team of Meteorologists,” in which he repeated
(and expanded on) several assertions made in his
earlier tweets.
In response to the Twitter posts and the article,
Konowicz sent Carr a cease-and-desist letter in July
2015. The letter accused Carr of spreading “false
statements of fact concerning [Konowicz],” and labeled
Carr’s allegedly defamatory statements “categorically
1 Although Konowicz has since assigned the trademark for
Weatherboy to Isarithm LLC, references to Weatherboy herein
refer to Konowicz in his individual capacity.

App.3a
false.” App. 846–47. Konowicz also provided Carr a copy
of Konowicz’s MSU certificate with the letter. Konowicz
demanded Carr “issue a full and complete retraction”
and “take down [his] online defamatory statements.”
App. 849. Carr did neither.
In September 2015, Konowicz sued Carr for
defamation, unfair competition, and violating the
Lanham Act. Carr filed an answer and a counterclaim
against Konowicz for defamation. The District Court
granted Carr summary judgment on Konowicz’s claims
and granted Konowicz summary judgment on Carr’s
counterclaim. Only Konowicz appealed.2
II
A
Konowicz made two arguments in the District
Court: (1) Carr originally published his statements
with actual malice—i.e., “knowledge that [they] w[ere]
false or with reckless disregard of whether [they]
w[ere] false or not,” New York Times Co. v. Sullivan,
376 U.S. 254, 280 (1964); and (2) the statements were
republished with actual malice. On appeal, Konowicz
focuses on the latter point, arguing that Carr’s receipt
of the cease-and-desist letter provided him “notice of
the falsity of his claims.” Konowicz Br. 36. By republishing the statements on his website after receiving
the letter, Konowicz argues, Carr acted with actual
malice.
At summary judgment, the appropriate question
was “whether the evidence in the record could support
2 The District Court had jurisdiction under 28 U.S.C. §§ 1331
and 1367(a). We exercise jurisdiction under 28 U.S.C. § 1291.

App.4a
a reasonable jury finding . . . that [Konowicz] has shown
actual malice by clear and convincing evidence.”
Anderson v. Liberty Lobby, Inc. , 477 U.S. 242, 255–
56 (1986). To make that determination, the District
Court had to consider each allegedly actionable statement. We do the same here.
1
The first statements under review were made in
December 2014. In response to a third party’s Twitter
thread questioning the identity of Weatherboy, Carr
wrote: “Real name Michael Konowicz. No degree or
AMA record. fake audience.” 3 App. 439. Konowicz
argues that because he provided Carr with a copy of
his MSU certificate and his AMS membership number,
a jury must determine whether Carr acted with
actual malice when he republished these statements.
Carr responds that a certificate is not the same as a
“degree,” and that he continued to believe his statement
even after receiving the cease-and-desist letter.
Because we look to the speaker’s subjective understanding of the truth or falsity of a statement when
considering actual malice, see St. Amant v. Thompson,
390 U.S. 727, 731 (1968), we agree with Carr and the
District Court that Carr’s “no degree” comment lacks
clear and convincing evidence of actual malice. See
Anderson, 477 U.S. at 256. Knowledge of the certificate
would not have led Carr to possess a “high degree of
awareness of [the] probable falsity” of his claim because
he reasonably believed that Konowicz’s certificate is
not a “degree.” Garrison v. Louisiana, 379 U.S. 64, 74
(1964).
3 Both parties agree Carr meant to type “AMS.”

App.5a
As for the claim that AMS had no record of
Konowicz, the District Court found that even though
Konowicz “provided some objective evidence to Carr
that Konowicz [held] at least one type of . . .membership
or accreditation” with AMS, this did not raise a
genuine issue regarding actual malice. App. 1189.
We agree.
Although the cease-and-desist letter provided Carr
with Konowicz’s AMS membership number as well as
a link to a search feature on AMS’s website, such
evidence does not create a genuine dispute as to
actual malice. Under Carr’s reasonable subjective
belief, “AM[S] record” referred to records of official
accreditation, not a more general record of membership. While Carr easily could have verified Konowicz’s
general affiliation with the organization, the evidence
provided did not prove official accreditation. Republication of the statement in light of the cease-and-desist
letter did not, therefore, constitute actual malice.
Finally, with respect to the claim that Konowicz
had a “fake audience,” we agree with the District
Court that there was no evidence of actual malice.
Carr had many reasons for believing that Konowicz’s
audience was largely composed of fake accounts.
The cease-and-desist letter did little to refute Carr’s
repeated claims to that effect. So Carr was not put on
notice of the “probable falsity” of his statement, Garrison,
379 U.S. at 74, and Konowicz failed to show actual
malice regarding Carr’s “fake audience” claims.4

4 Carr references Konowicz’s “fake audience” repeatedly. Because
Konowicz never offers clear and convincing evidence to support a
finding of actual malice, the analysis for each reference is identical.

App.6a
2
In February 2015, Carr warned his Twitter
followers to be “careful of Weatherboy Weather. Total
fraud. Have unsettling proof.” App. 384. When pressed
for proof, Carr responded on the same message thread:
“check records on Michael Konowicz. Not a pro met.
Not a member of AMS.” Id. As with the December
statement claiming Konowicz had “No degree or AM[S]
record,” App. 439, Konowicz argues Carr’s republication of these statements after receiving his certificate
and AMS membership number constitutes clear and
convincing evidence of actual malice. We disagree.
The District Court did not err when it held that
Carr’s republication of these statements did not raise an
actual malice issue for the jury. As the Court noted,
the parties “disagree[d] over the operative portion of
the AMS’s definition of meteorologist.” App. 1187.
Carr relied on this definition: “[a] meteorologist is an
individual with specialized education . . . most typically
in the form of a bachelor’s degree or higher.” Id. at
1187–88. Carr’s statement was not made with actual
malice because Konowicz’s certificate is not “a bachelor’s
degree or higher.” Id.
We likewise agree with the District Court that
the claim Konowicz was not a “member” of AMS does
not create a genuine dispute as to actual malice. As
Carr understood the term, “membership” does not
encompass Konowicz’s generic, non-credentialed participation in the organization. On Carr’s understanding,
only Certified Broadcast Meteorologist and Certified
Consulting Meteorologist AMS accreditations qualify
as “membership.” Here again, the cease-and-desist
letter did not invalidate Carr’s reasonable understanding, so Konowicz cannot meet the clear-and-con-

App.7a
vincing threshold to show Carr made the statement
with a “high degree of awareness of [its] probable falsity.”
Garrison, 379 U.S. at 74.
3
Carr continued to make allegedly defamatory
statements in March 2015. After Weatherboy wrote
that United Airlines invited him to its headquarters
in Chicago to study its winter weather operations,
Carr responded with a series of four tweets, stating:
“Chicago story fake. No names. No credentials. No
supporting media. Shots similar to other images on
Google images”; “Keep sponsoring fake articles to
fake audience while impersonating a fake team of
meteorologists. #StayClassy”; “541 likes on a sponsored
article to a fan-base of 250k. Sorry, that proves dirty
pool. For real unparalleled trust and reach see . . . my
page”; and “just some guy impersonating a team of
real meteorologists practicing horrible journalism.”
App. 41.
Konowicz cites his cease-and-desist letter as evidence that contradicts Carr’s claims that Konowicz’s
“team of meteorologists” was “fake.” We are unpersuaded.
The cease-and-desist letter states: “Weatherboy
Weather [ ] is indeed a team effort, from other meteorologists, photographers, designers, and staff.” App.
847. As the District Court noted, however, that
assertion did not put Carr on notice that his statement
was false—it put him on notice that he and Konowicz
disagreed. While Konowicz did eventually provide proof
that he contracted with two independent meteorologists, this “team” evidence “only came out during
discovery.” App. 1189. Because this evidence was

App.8a
adduced well after the statement was made, it does
not suggest Carr knew the falsity of his statement
when he republished it.
Konowicz also argues he provided clear and
convincing evidence that his trip to Chicago was real,
so Carr republished the statement with actual malice.
Konowicz included several photographs in a second
letter sent to Carr in February 2016—four months
after Konowicz filed suit and three months after the
republication at issue. Konowicz claims these photographs show United invited him to Chicago. We agree
with the District Court that these photographs are
not clear and convincing evidence of actual malice
because they would not cause Carr to understand
his statement to be “probabl[y] fals[e]” at the time of
republication. See St. Amant, 390 U.S. at 731; see
also Gertz v. Welch, 418 U.S. 323, 334 n.6 (1974)
(equating “reckless disregard of the truth” with
“subjective awareness of probable falsity”). As Carr
explained, the photographs—which lack dates or identifying features—“are merely evidence that [Konowicz]
was at some airport at some time for some purpose.”
Carr Br. 45.
4
Finally, in June 2015, Carr published an article
on his website essentially repeating several of his prior
statements. App. 43–47. Specifically, Konowicz draws
our attention to one line: “The American Meteorological
Society (AMS) currently has zero-evidence of him.”
App. 116; Konowicz Br. 37. The District Court held
that Carr’s republication of this statement after receipt
of the cease-and-desist letter did not create a jury
question as to actual malice. We disagree.

App.9a
Unlike Carr’s claim as to AMS’s lack of an official
accreditation record of Konowicz, see supra Section
II-A-1, the claim AMS has “zero-evidence of [Konowicz]”
is broader, encompassing even general, non-accreditation membership in AMS. As previously noted,
however, the cease-and-desist letter provided Carr with
Konowicz’s AMS membership number as well as a
link to a search feature on AMS’s website, so Carr
easily could have verified Konowicz’s general membership and affiliation with the organization.
Carr cannot “automatically insure a favorable
verdict by testifying that he published with a belief
that the statements were true.” St. Amant, 390 U.S.
at 732. Since Carr received explicit evidence contradicting his sweeping statement, the decision to nevertheless republish creates a jury question as to whether
Carr acted with actual malice when he said “The
American Meteorological Society (AMS) currently has
zero-evidence of [Konowicz].” App. 116. See, e.g. ,
Schiavone Constr. Co. v. Time, Inc., 847 F.2d 1069,
1090 (3d Cir. 1988) (“Where the defendant finds . . .
apparently reliable information that contradicts [his]
libelous assertions, but nevertheless publishes those
statements anyway, the New York Times actual
malice test can be met.”).
B
Konowicz also argues the District Court erred in
denying his Lanham Act and unfair competition claims.
We address the two together because “the Lanham
Act is derived generally and purposefully from the
common law tort of unfair competition, and its language
parallels the protections afforded by state common
law.” Am. Tel. and Tel. Co. v. Winback and Conserve

App.10a

Program, Inc., 42 F.3d 1421, 1433 (3d Cir. 1994); see
also Buying For The Home, LLC v. Humble Abode,
LLC, 459 F. Supp. 2d 310, 317 (D.N.J. 2006) (“[T]he
elements of a claim of unfair competition under the
Lanham Act are the same as for claims of unfair
competition . . . under New Jersey . . .law.”).
We agree with the District Court that Carr’s
statements are not actionable under the Lanham Act
because they are not commercial speech. See, e.g., Boule
v. Hutton, 328 F.3d 84, 90 (2d Cir. 2003) (holding that a
“statement must be (1) commercial speech” to fall under
the Lanham Act (internal quotation marks omitted));
Taubman Co. v. Webfeats, 319 F.3d 770, 774 (6th
Cir. 2003) (“The Lanham Act is constitutional because
it only regulates commercial speech, which is entitled
to reduced protections under the First Amendment.”).
Carr’s statements from December 2014, March
2015, and June 2015 are not commercial speech
because they do not “refer to a specific product or
service.” U.S. Healthcare, Inc. v. Blue Cross of Greater
Phila., 898 F.2d 914, 933 (3d Cir. 1990) (citing Bolger v.
Youngs Drug Prods. Corp., 463 U.S. 60, 66-67 (1983)).
Carr’s remaining statement—“The American Meteorological Society (AMS) currently has zero-evidence of
[Konowicz],” App. 116—appeared within an article that
perhaps served as an advertisement and referred to
Carr’s services. We agree with the District Court,
however, that Konowicz has failed to establish Carr’s
economic motivation such that his speech should be
actionable under the Lanham Act. Although Carr
admits that he makes roughly $1,000 a month from
his weather services, the District Court found that
Konowicz failed to show these profits—as opposed to

App.11a
myriad other potential motivations—prompted Carr
to publish the article or make the statement.
It is true, of course, that courts have found “[t]hese
[Bolger factors] are not exclusive . . . and the presence
or absence of any of them does not necessitate a
particular result.” Radiance Foundation, Inc. v. N.A.A.
C.P., 786 F.3d 316, 323 (4th Cir. 2015). They are,
nevertheless, useful in helping courts make the
“‘commonsense’ distinction between speech proposing
a commercial transaction . . . and other varieties of
speech.” Bolger, 463 U.S. at 64. Recognizing that “we
err on the side of fully protecting speech when confronted with works near the line dividing commercial
and noncommercial speech,” Facenda v. N.F.L. Films,
Inc., 542 F.3d 1007, 1018 (3d Cir. 2008), we perceive
no error in the District Court’s “‘commonsense’ distinction” based on the absence of proof of economic
motivation. Bolger, 463 U.S. at 64.
Because Carr’s statements were not commercial
speech, Carr was entitled to summary judgment on
Konowicz’s Lanham Act and unfair competition claims.
[* * *]
For the reasons stated, we will affirm the District
Court’s judgment regarding all but one of Carr’s
allegedly defamatory statements. We will vacate and
remand for a trial regarding “The American Meteorological Society (AMS) currently has zero-evidence of
[Konowicz].” We will affirm the District Court’s judgment for Carr on Konowicz’s Lanham Act and unfair
competition claims.

App.12a
MEMORANDUM OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF NEW JERSEY FILED UNDER SEAL
[UNSEALED]
(JANUARY 7, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS, and ISARITHIM LLC,

Plaintiffs,
v.
JONATHAN P. CARR; SEVERE NJ
WEATHER, LLC, and WEATHER NJ, LLC,

Defendants.
________________________
Civil Action No. 15-6913 (MAS) (TJB)
Before: Michael A. SHIPP,
United States District Judge.
This matter comes before the Court upon Plaintiffs
Michael Konowicz a/k/a Michael Phillips (“Konowicz”)
and Isarithim, LLC’s (collectively, “Plaintiffs”) Motion
to Correct a Judgment pursuant to Federal Rule of
Civil Procedure 59(e). (ECF No. 102.) Defendants
Jonathan P. Carr, Severe NJ Weather, LLC, and
Weather NJ, LLC (collectively, “Defendants”) opposed.
(ECF No. 106.) The Court has carefully considered

App.13a
the parties’ submissions and decides the motion
without oral argument pursuant to Local Civil Rule
78.1. For the reasons set forth below, Plaintiffs’ Motion
to Correct a Judgment is denied.
I.

Background1

On May 31, 2019, the Court granted Defendants’
motion for summary judgment, finding: (1) Plaintiffs
failed to raise a genuine dispute as to whether Defendants’ statements were made with actual malice; and
(2) Defendants’ statements were not commercial speech.
(Mem. Op. 31, ECF No. 99.) On June 28, 2019, Plaintiffs moved to “correct judgment” on their defamation,
Lanham Act, and unfair competition claims. (Pls.’
Moving Br. 2-3, ECF No. 102.)
II.

Legal Standard

The purpose of a motion for reconsideration is
“to correct manifest errors of law or fact or to present
newly discovered evidence.” Max’s Seafood Cafe v.
Quinteros, 176 F.3d 669, 677 (3d Cir. 1999). “A proper
Rule 59(e) motion[,] therefore[,] must rely on one of
three grounds: (1) an intervening change in controlling
law; (2) the availability of new evidence; or (3) the
need to correct clear error of law or prevent manifest
injustice.” Lazaridis v. Wehmer, 591 F.3d 666, 669 (3d
Cir. 2010).
A motion for reconsideration is not a vehicle
to reargue the motion or to present evidence
which should have been raised before. A party
1 After four years of discovery and motion practice, the parties
are familiar with the background of this case. The Court, therefore,
dispenses with a summation of the factual background.

App.14a
seeking reconsideration must show more
than a disagreement with the Court’s decision,
and ‘recapitulation of the cases and arguments
considered by the court before rendering its
original decision fails to carry the moving
party’s burden.’

Database Am., Inc. v. Bellsouth Advert. & Pub. Corp.,
825 F. Supp. 1216, 1220 (D.N.J. 1993) (citations omitted).
III. Discussion
A. Plaintiffs’ Defamation Claim
Plaintiffs argue that the Court ignored evidence
of actual malice when Defendants “republished demonstrably false statements about Plaintiffs online after
being confronted with the falsity of those statements”
and that the Court misapplied the test for actual
malice as to the republication. (See Pls.’ Moving Br.
2, 7-11.) Plaintiffs specifically refer to the online
“republication” of Can.’s Answer, Separate Defenses,
Counterclaim, and Jury Demand dated November
11, 2015 (“Carr’s Answer with Counterclaim”). (See
id. at 7-8 (citing Konowicz Cert. ¶ 39, ECF No. 90).)
Here, Plaintiffs make the same argument as
they did in opposition to Defendants’ summary judgment motion and cite to the same paragraph of the
Konowicz Certification for support.2 (See Pls.’ Opp’n
2 The Court reiterates its initial finding that Plaintiffs has not
raised a genuine dispute of material fact regarding actual malice.
(See Mem. Op. 22-27.) The Konowicz Certification—which Plaintiffs previously cited as the “Philips Certification”—states, in
relevant part:
Carr filed an Answer with a Counterclaim on or
about November 10, 2015, which repeated all of the

App.15a
Br. to Defs.’ Mot. Summ. J. 14, ECF No. 90.) Plaintiffs
again point to a July 8, 2015, letter which “put
Defendants on notice of the falsity of their claims.”
(Pls.’ Moving Br. 7-8.) The Court, however, had previously considered the July 8, 2015 letter. (See Mem.
Op. 10, 22-27.) Plaintiffs reargue the same point on
Defendants’ alleged republication of Carr’s Answer
with Counterclaim, but do not proffer any newly
discovered evidence of actual malice as to the republication—or even evidence of the republication itself.
Because a motion for reconsideration is not a vehicle
to reargue the motion and because Plaintiffs neither
rely on an intervening change in controlling law nor
the need to correct clear error of law or prevent
manifest injustice, the Court denies Plaintiffs’ Motion
as to their defamation claim.
B. Plaintiffs’ Lanham Act and Unfair Competition
Claims
Plaintiffs argue that the Court ignored evidence
on the record showing the “Kaboom” article was
advertising and was, therefore, commercial speech.
previously mentioned defamatory statements about
me. Soon thereafter, Carr published his Answer with
Counterclaim online, even though he had been put
on notice of the falsity of the statements therein.
(Konowicz Cert. ¶ 39.) Conclusory self-serving affidavits cannot
withstand a motion for summary judgment in the absence of
additional support. See Gonzalez v. Sec’y of Dep’t of Homeland
Sec., 678 F.3d 254, 263 (3d Cir. 2012). Without more, the Konowicz
Certification does not allow Plaintiffs’ defamation claim to survive
summary judgment. As the Court previously explained, Plaintiffs
have not produced “clear and convincing” evidence of Defendants’
actual malice to survive summary judgment. (Mem. Op. 17 (citing
Costello v. Ocean Cty. Observer, 643 A.2d 1012, 1023 (N.J. 1994)).)

App.16a
(See Pls.’ Moving Br. 3, 11-15 (citing Konowicz Cert.
¶ 36).) Plaintiffs relied on the same Konowicz Certification as evidence in their summary judgment opposition.3 (See Pls’ Opp’n Br. to Defs.’ Mot. Summ. J. 1314.) Because Plaintiffs do not rely on newly discovered
evidence, an intervening change in controlling law,
or a need to correct clear error of law or prevent
manifest justice, the Motion is denied as to Plaintiffs'
Lanham Act and unfair competition claims.
IV. Conclusion
For the foregoing reasons, the Court denies
Plaintiffs’ Motion to Correct a Judgment. An Order
consistent with this Memorandum Opinion will be
entered.
/s/ Michael A. Shipp
United States District Judge

3 As with Plaintiffs’ defamation claim, the Konowicz Certification,
without more, is a self-serving affidavit that does not create a
genuine dispute as to whether the Kaboom article is commercial
speech. See Gonzalez, 678 F.3d at 263.

App.17a
MEMORANDUM OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF NEW JERSEY FILED UNDER SEAL
[UNSEALED]
(JULY 31, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS, and ISARITHIM LLC,

Plaintiffs,
v.
JONATHAN P. CARR; SEVERE NJ
WEATHER, LLC, and WEATHER NJ, LLC,

Defendants.
________________________
Civil Action No. 15-6913 (MAS) (TJB)
Before: Michael A. SHIPP,
United States District Judge.
SHIPP, District Judge
This matter comes before the Court upon Counterclaim Defendant Michael Konowicz’s (“Konowicz” or
“Counterclaim Defendant”) Motion for Summary Judgment. (ECF No. 92.) Counterclaim Plaintiffs Jonathan
P. Carr, Weather NJ, LLC, and Severe NJ Weather
LLC (collectively, “Carr” or “Counterclaim Plaintiff”)

App.18a
opposed. (ECF No. 98.) The Court has carefully considered the parties’ submissions and decides the motion
without oral argument pursuant to Local Civil Rule
78.1. For the reasons set forth below, Konowicz’s
Motion for Summary Judgment is granted.
I.

Procedural Background

Konowicz initiated this suit on August 16, 2015,
asserting three causes of action against Carr. (Compl.
¶¶ 31-54, ECF No. 1.) On November 15, 2015, Carr
answered and asserted a single counterclaim of
defamation against Konowicz. (See generally Answer
& Countercl., ECF No. 9.) On June 30, 2016, the Court
granted Carr’s Motion for Judgment on the Pleadings
(ECF No. 12) and denied Konowicz’s Cross-Motion to
Amend (Order, ECF No. 16).
On October 10, 2016, Konowicz filed an Amended
Complaint asserting the same three causes of action.
(See Am. Compl., ECF No. 28.) On November 7, 2016,
Carr answered and asserted the same single counterclaim of defamation against Konowicz. (See Answer &
Countercl. (“Countercl.”), ECF No. 30.)
The parties cross-moved for summary judgment,
and on October 12, 2018, the Court terminated both
parties’ motions because of the parties’ mutual failure
to comply with Local Civil Rule 56.1 and Konowicz’s
failure to comply with Local Civil Rule 5.3. (Mem.
Op., ECF No. 72.) On October 22, 2018, the parties
re-filed their motions. (See Mots. for Summ. J., ECF
Nos. 75, 78.) Carr’s motion addressed the procedural
and substantive deficiencies identified in the Court’s

App.19a
October 12, 2018 Memorandum Opinion.1 Konowicz’s
motion papers, however, again failed to comply with
Local Civil Rule 5.3. After several more attempts at
filing his motion papers (see ECF Nos. 88, 96), on
January 11, 2019, Konowicz appropriately filed the
instant Motion for Summary Judgment. (Countercl.
Def.’s Moving Br., ECF No. 97.) On January 15, 2019,
Carr opposed. (Countercl. Pl.’s Opp’n Br., ECF No.
98.) Konowicz did not submit a reply brief.
II.

Factual Background

The Court provided an extensive factual summary
in its Memorandum Opinion related to Carr’s summary
judgment motion. (See Carr MSJ Op.) Thus, the Court
recites only the facts necessary to decide the instant
motion.
The instant matter arises from several statements
Konowicz made about Carr on Facebook. (See Countercl.
¶ 14.) Carr is an “amateur weather enthusiast who
operates on the Internet and social media through . . .
Weather NJ, LLC and [previously] through . . . Severe
NJ Weather, LLC. (Id. ¶ 1.) Carr admits that he has
over 225,000 followers on Facebook and has made over
twenty radio appearances. 2 (Compare KSUMF 1 8,
with CRSDF ¶ 8.)
1 On May 31, 2019, the Court granted Carr’s Motion for Summary
Judgment. (Mem. Op. (“Carr MSJ Opinion.”), ECF No. 99.)
2 The Court’s factual summary draws primarily from Konowicz’s
Statement of Material Facts Not in Dispute. (Countercl. Def.’s
Statement of Material Facts Not in Dispute (“KSUMF”), ECF
No. 97-1.) Carr submitted a response to the KSUMF. ( See
Countercl. Pl.’s Response to KSUMF (“CRSDF”), ECF No. 98-1.)
Carr also submitted a Supplemental Statement of Disputed
Material Facts. (Def.’s Supp. Statement of Disputed Material

App.20a
On June 23, 2015, one of Carr’s online followers
sent Carr a photo of what the sender thought was a
tornado. (CSUMF ¶ 3.) Carr posted the same photo on
Facebook. (Id.) Konowicz took the photo and posted it
on his Weatherboy Weather Facebook page with a
red line through it, and included a statement that the
National Weather Service (“NWS”) was still investigating if what was depicted in the photo was a
tornado. (Id. ¶ 6; Countercl., Ex. H. (“NWS Post”),
ECF No. 30-2.)3 Konowicz, as Weatherboy Weather,
then stated “We’re glad to see the [NWS] take a
stand against them.” (KSUMF ¶ 6; June 23 Post.) He
also stated “the [NWS] was very vocal in calling out
[Carr] for spreading harmful misinformation.” (June
23 Post.) Carr alleges that these two statements—(1)
that the NWS had “called out” Carr for “spreading
harmful misinformation”; and (2) that the NWS had
Facts (“CSUMF”), ECF No. 98-1.) Despite describing the statements as disputed, Carr cites to the record submitted in conjunction with his Motion for Summary Judgment, in which he asserted
that the same facts were undisputed. (Compare CSUMF ¶¶ 1-7,
with Def.’s Statement of Undisputed Material Facts ¶¶ 89-94,
96, ECF No. 76-5.) The Court, accordingly, assumes that Carr
intended the CSUMF to include undisputed facts. Additionally,
because Konowicz did not submit a response to the CSUMF, the
Court deems the CSUMF as undisputed. Easterling v. U.S.
Dep’t of Educ., No. 15-1367, 2016 WL 8674610, at *4 (D.N.J. Dec.
23, 2016) (“Local Civil Rule 56.1(a) deems a . . . statement of
material facts to be undisputed where the opposing party does
not respond to it or file a counterstatement.”)
3 In support of his Motion for Summary Judgment, Carr submitted a screenshot of the NWS Post and screenshot of comments
on the same post. (See Def.’s Mot. for Summ. J., Exs. 24, 25
(“June 23 Post”), ECF No. 76-3.) For the parties convenience,
the Court refers to both the NWS Post and the subsequent
comments as the “June 23 Post”.

App.21a
“taken a stand” against Carr—are defamatory. (See
Countercl. ¶¶ 14, 18.)
Konowicz asserts that the basis for his statement
that the NWS had “called out” Carr was a series of
tweets made by Szatkowski. 4 (KSUMF ¶ 12.)5 In
separate tweets, Szatkowski stated:
Sorry, but the sun is out. Worst of storm
has moved on. Why would that be a tornado?
***
Well, I just think it’s misrepresented as a
tornado. But others can have different opinions.
***
To be [a] confirmed tornado, a damage survey
must be done. It must have a start and end
point. Maximum wind speed is evaluated.
***

4 Konowicz states that Szatkowski worked for the NWS, and
Carr testified that Szatkowski previously worked for the NWS.
(KSUMF ¶ 11; Cert. of John A. O’Connell, Ex. B, Dep. Tr. of
Jonathan P. Carr 31:15-23, ECF No. 97-2.)
5 Carr denies this paragraph of Konowicz’s Statement of Facts
on the grounds that it does not cite to the record in accordance
with Local Civil Rule 56.1. Carr is correct that this paragraph
does not contain a citation to the record in violation of the Local
Rules. Konowicz’s Certification, however, provides that Konowicz
relied upon the series of tweets by Szatkowski when he made
the statement that Carr was called out. (Cert. of Michael Konowicz
¶ 5, ECF No. 97-2.) The Court, accordingly, accepts as true
Konowicz’s statement that Szatkowski’s tweets were the basis
of his statements.

App.22a
For that ever to be more than a pretty
picture of an interesting cloud, that is what
must happen.
***
If its not important that it be confirmed as a
tornado, [then] call it what you wish. I
simply won’t be able to concur.
(Compare id. ¶ 10, with CRSDF ¶ 10, and Cert. of
John A. O’Connell, Ex. C, ECF No. 97-2.)
III. Legal Standard
Summary judgment is appropriate if the record
demonstrates “that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
Anderson v. Liberty Lobby, Inc. , 477 U.S. 242, 250
(1986). A material fact—a fact “that might affect the
outcome of the suit under governing law,”—raises a
“genuine” dispute if “a reasonable jury could return a
verdict for the nonmoving party.” Williams v. Borough
of W. Chester, 891 F.2d 458, 459 (3d Cir. 1989) (quoting
Anderson, 477 U.S. at 248). To determine whether a
genuine dispute of material fact exists, the Court
must consider all facts and reasonable inferences in
the light most favorable to the non-movant. Curley v.
Klem, 298 F.3d 271, 276-77 (3d Cir. 2002). The Court
will not “weigh the evidence and determine the truth
of the matter” but will determine whether a genuine
dispute necessitates a trial. Anderson, 477 U.S. at 249.
The party moving for summary judgment has
the initial burden of proving an absence of a genuine
dispute of material fact. Celotex Corp. v. Catrett, 477
U.S. 317, 330 (1986). Thereafter, the nonmoving party

App.23a
creates a “genuine [dispute] of material fact if it has
provided sufficient evidence to allow a jury to find [for
him] at trial.” Becton Dickinson & Co. v. Wolckenhauer, 215 F.3d 340, 343 (3d Cir. 2000)
“[C]ourts have recognized that the perpetuation
of meritless actions, with their attendant costs,
chills the exercise of free speech about public
affairs.” Berkery v. Estate of Stuart , 988 A.2d 1201,
1209 (N.J. Super. Ct. App. Div. 2010). Accordingly,
“trial courts should not hesitate to use summary judgment procedures where appropriate to bring such
actions to a speedy end.” Id. “On the other hand, the
actual-malice standard entails a subjective analysis
of the defendant’s state of mind[,]” and “the issue of a
defendant’s state of mind in a defamation action ‘does
not readily lend itself to summary disposition.’” Id.
(quoting Maressa v. N.J. Monthly, 445 A.2d 376, 387
n.10 (N.J. 1982)). “Courts should carefully examine the
circumstances surrounding publication of defamatory
allegations of fact to determine whether the issue of
actual malice should go to the jury.” Id.
IV. Discussion
Konowicz advances three principal arguments
in support of his Motion for Summary Judgment:
(1) that Carr has no damages because he cannot
demonstrate any pecuniary loss; (2) that Carr cannot
demonstrate actual malice as required by his position
as a limited public figure; and (3) that the truth of
Konowicz’s statements serve as a defense. (Countercl.
Def.’s Moving Br.7-9, ECF No. 97.) On the first point,
Konowicz states that under New Jersey law a “plaintiff suing on an issue of public concern must show
damages.” (Id. at 8 (citing Rocci v. Ecole Secondaire

App.24a

Macdonald-Cartier, 755 A.2d 583, 587 (N.J. 2000)).)
Konowicz argues that “Carr’s admission that he
suffered no pecuniary damages dooms his counterclaim.” (Id.) On the second point, Konowicz argues
that Carr is a limited public figure because of his
radio appearances and “his weather posts [which]
reach more than 100,000 people.” (Id.) Konowicz insists
that Carr cannot establish the requisite actual malice
because Konowicz’s statements were “mere opinion
or hyperbole.” (Id. at 8-9 (citing LoBiondo v. Schwartz,
733 A.2d 516, 518 (N.J. Super. Ct. App. Div. 1999)).)
On the final point, Konowicz argues that given Szatkowski’s tweets, “it was perfectly legitimate—true, in
fact—for Konowicz to say that Carr had been ‘called
out’ by the” NWS. (Id. at 10.)
Carr opposes, advancing two primary arguments.
(Countercl. Pl.’s Opp’n Br. 4-10.) First, Carr argues
that “the evidence shows that [Konowicz] fabricated
his claims that Mr. Carr had been ‘called out’ and
‘reprimanded’ by the [NWS] for ‘spreading harmful
information.’” (Id. at 6.) Carr relies on communications
between Szatkwoski and Carr to establish that
Szatkwoski’s tweets were not a “reprimand”. (Id. at 78.) Carr insists that the fabricated nature of Konowicz’s
claims shows that there is a disputed issue of material
fact regarding actual malice, and the grant of summary judgment is inappropriate. (Id. at 8.) Carr’s
second argument is that if actual malice is established,
the doctrine of presumed damages applies, and therefore the damages element is waived, and the award
of damages becomes an issue for the jury. (Id. at 9-10.)
A defamation claim has three elements: (1) the
assertion of a false and defamatory statement concerning another; (2) the unprivileged publication of

App.25a
that statement to a third party; and (3) fault amounting
at least to negligence by the publisher. G.D. v. Kenny,
15 A.3d 300, 310 (N.J. 2011) (quoting DeAngelis v.
Hill, 847 A.2d 1261, 1267-68 (N.J. 2004)). In cases
where the plaintiff is a public figure, the plaintiff also
must establish that the defendant made the statements
at issue with “actual malice”. N.Y. Times Co. v.
Sullivan, 376 U.S. 254, 279-80 (1964). “Actual malice
has ‘nothing to do with hostility or ill will; rather it
concerns [a] publisher’s state of knowledge of the
falsity of what he [or she] published. . . . ’” DeAngelis,
847 A.2d at 1270 (N.J. 2004) (quoting Lawrence v.
Bauer Pub. & Printing Ltd., 446 A.2d 469, 477 (N.J.
1982)).
“To determine if a statement has a defamatory
meaning, a court must consider three factors: (1) the
content, (2) the verifiability, and (3) the context of
the challenged statement.” NuWave Inv. Corp. v.
Hyman Beck & Co., 75 A.3d 1241, 1249 (N.J. Super.
Ct. App. Div. 2013), aff’d, 114 A.3d 738 (N.J. 2015)
(internal quotations and citation omitted). “Whether
the meaning of a statement is susceptible of a
defamatory meaning is a question of law for the court.”
Ward v. Zelikovsky , 643 A.2d 972, 978 (N.J. 1994).
Opinions “are generally not capable of proof
of truth or falsity because they reflect a
person’s state of mind,” and as such are
usually not actionable as defamation. For
example, stating a person “was dishonest and
lacking in integrity” is an opinion that is
generally not subject to verification. However,
a “defamatory opinion statement” is actionable
when it implies “reasonably specific asser-

App.26a
tions” of “underlying objective facts that are
false.”

NuWave Inv. Corp., 75 A.3d at 1250.
“Another component of a statement’s defamatory
nature—and thus an element of a prima facie case—
is that [the] plaintiff must have been harmed by the
alleged defamation. . . . Indeed, to survive a defendant’s
motion for summary judgment, a plaintiff must raise
a sufficient question of fact as to actual injury to his
or her reputation.” McLaughlin v. Rosanio, Bailets &
Talamo, Inc., 751 A.2d 1066, 1071 (N.J. Super. Ct.
App. Div. 2000). “Damages which may be recovered
in an action for defamation are: (1) compensatory or
actual, which may be either (a) general or (b) special;
(2) punitive or exemplary; and (3) nominal.” W.J.A. v.
D.A., 43 A.3d 1148, 1154 (N.J. 2012) (quoting Prosser
and Keeton on Torts § 116A at 842 (5th ed. 1984)).
Contained within the notion of actual damages
is the doctrine of presumed damages—the
losses “which are normal and usual and are
to be anticipated when a person’s reputation is impaired.” Presumed damages are a
procedural device which permits a plaintiff
to obtain a damage award without proving
actual harm to his reputation. . . . Presumed
damages apply in libel cases. In contrast,
slander cases generally require proof of special
damage—an economic or pecuniary loss. However, if the slander is per se (e.g., accusation
of a crime, a loathsome disease, misfeasance
in business, or serious sexual misconduct
. . . the requirement of proving special or
economic damage in a slander case drops
away. . . . In that case, slander per se, like

App.27a
libel, permits the jury to consider presumed
damages.

Id. “[T]he doctrine of presumed damages permits [a
party] to survive a motion for summary judgment and
to obtain nominal damages, thus vindicating his [or
her] good name.” Id. at 1150.
“Once a plaintiff establishes that there was a
defamatory statement [and damages], he or she then
must prove . . . that the defendant was at fault in
publishing the [defamatory statement].” McLaughlin,
751 A.2d at 1072. “If . . . the plaintiff is a public figure,
[the plaintiff must] prove that the defendant was
motivated by ‘actual malice—that the defendant either
knew the statement was false or recklessly disregarded
its falsity.’” Id.
Here, the Court finds that Konowicz is entitled
to summary judgment because Konowicz’s statements
are not defamatory in nature and because Carr
cannot meet his burden of establishing that the
statements were made with actual malice. The Court
discusses each of these issues in turn.6
A. Konowicz’s Statements Were Not Defamatory
“A statement’s content must be judged not by its
literal meaning but by its objective meaning to a reasonable person of ordinary intelligence.” McLaughlin,
6 The New Jersey Supreme Court has held that the presumed
damages doctrine remains viable and a plaintiff can recover
nominal damages, even in the absence of actual damages. See
W.J.A., 43 A.3d at 1154. As a result, Konowicz’s argument
regarding Carr’s failure to establish a pecuniary loss is unpersuasive as it is contrary to the current state of New Jersey law
and the Court will not consider it further.

App.28a
751 A.2d at 1071. “A statement’s verifiability refers
to whether it can be proved true or false.” Lynch v.
N.J. Educ. Ass’n, 735 A.2d 1129, 1137 (N.J. 1999).
Loose, figurative or hyperbolic language is
not likely to imply specific facts, and thus is
not likely to be deemed actionable. A pure
opinion is one that is based on stated facts
or facts that are known to the parties or
assumed by them to exist . . . ; a “mixed
opinion” is one “not based on facts that are
stated or assumed by the parties to exist”
. . . If a statement could be construed as
either fact or opinion, a defendant should
not be held liable. An interpretation favoring
a finding of “fact” would tend to impose a
chilling effect on speech.

Id. (internal citations and certain quotation marks
omitted.)
The Court finds that Konowicz’s statements were
not defamatory. On the one hand, determining whether
the NWS had “called out” Carr and “taken a stand”
against Carr appears to be a verifiable fact which the
Court can whether it is true or false. On the other hand,
“the context of a statement can affect significantly its
fair and natural meaning.” Id. Thus, the fact that the
statements were made in the comments section of a
Facebook post and by Konowicz about Carr—two
individuals who had engaged in a years’ long social
media “war of words”7—suggests that Konowicz’s
7 The Court’s recitation of facts in this Memorandum Opinion
does not fully document the online interactions between Konowicz
and Carr. The Carr MSJ Opinion, however, sets forth the history
of the parties’ online interactions in detail. The Court, therefore,

App.29a
statements were not defamatory. See Wilson v. Grant,
687 A.2d 1009, 1013 (N.J. Super. Ct. App. Div. 1996)
(holding that it was not actionable when a radio host
described an adversary as a “sick, no good, pot smoking,
wife beating skunk”). Moreover, Konowicz’s statement
could be either a statement of fact or a hyperbolic
expression of his opinion of NWS’s actions toward
Carr.8 Because this ambiguity exists and allowing Carr
to maintain this suit could have a chilling effect on
speech, the Court finds that Konowicz’s statements
are not defamatory.
B. Carr Has Not Raised a Genuine Dispute of
Material Fact Regarding Actual Malice
The Supreme Court has identified two types of
public figures: (1) general public figures and (2) public
figures for a limited purpose. A general-purpose public
figure is defined as someone “who, by reason of the
notoriety of their achievements or the vigor and
success with which they seek the public’s attention,
does not repeat it here. (See Carr MSJ Op.) The record the
parties submitted in relation to Carr’s Motion for Summary
Judgment also details the parties’ interactions.
8 The Court notes that Carr appears to argue that Konowicz’s
use of the word “reprimand” is actionable. (Def.’s Opp’n Br. 6-8.)
A close read of the Facebook post, however, shows that another
user requested that Konowicz post the link to what that user
described as a “reprimand.” (June 23 Post.) Konowicz declined
to do so and used the term “reprimand” in response. (Id.) Thus,
Konowicz’s statement regarding a “reprimand” could be Konowicz
claiming that the NWS reprimanded Carr, or Konowicz simply
parroting the term the other user employed to describe Konowicz’s
prior post. Even if the Court were to adopt the former view, the
Court, for the reasons set forth above, would conclude that the
statement is not actionable.

App.30a
are properly classed as public figures. . . . ” Gertz v.
Robert Welch, Inc., 418 U.S. 323, 342 (1974). “Some
[people] occupy positions of such persuasive power
and influence that they are deemed public figures for
all purposes.” Id. at 345. Others, however, are only
public figures by virtue of the limited controversy in
which they find themselves. Id.
The New Jersey Supreme Court interpreted the
Supreme Court’s holding regarding limited purpose
public figures as follows:

Gertz refrains from establishing specific
criteria against which a plaintiff’s status
can be measured to determine whether or
not he [or she] is a public figure. Rather in
instances where the plaintiff is not a public
figure for all purposes, Gertz calls for a
case-by-case examination “looking to the
nature and extent of an individual’s participation in the particular controversy giving
rise to the defamation.” Important factors
that led the Court to conclude that the Gertz
plaintiff was not a public figure included [the]
plaintiff’s lack of any calculated relationship
with the press and the fact that he neither
“thrust himself into the vortex of this public
issue, nor [engaged] the public’s attention
in an attempt to influence its outcome.”

Lawrence, 446 A.2d at 475 (quoting Gertz, 418 U.S.
at 352) (internal citations omitted); accord MacKay v.
CSK Pub. Co., 693 A.2d 546, 554 (N.J. Super. Ct.
App. Div. 1997).
Here, the Court finds that Carr is a limited purpose public figure. Carr has over 250,000 Facebook

App.31a
followers, has appeared on the radio over 20 times,
and operates a website dedicated to weather reporting.
(CRSDF ¶ 8.) There is no doubt that Carr seeks
public attention for his weather-related pursuits.
C. Carr Has Not Raised a Genuine Dispute of
Material Fact Regarding Actual Malice
In New York Times v. Sullivan, the Supreme
Court held that in instances where the plaintiff is a
“public figure,” the plaintiff must establish that the
defendant made the statements at issue with actual
malice. 376 U.S. 254, 279-80 (1964). In Saint Amant
v. Thompson, the Supreme Court analyzed the actual
malice standard and held that a defendant who made
statements about his opponent’s character in a political
race was not liable for defamation, despite the defendant’s failure to investigate his statements and lack
of consideration of the consequences for the plaintiff.
390 U.S. 727, 732-33 (1968).
Actual malice requires evidence that the defendant
entertained serious doubts about the veracity of his
statements. Id. at 731. The actual malice standard
does not ask whether a reasonably prudent person
would have published the statements in similar circumstances. Id. “Rather, the focus of the ‘actual malice’
inquiry is on a defendant’s attitude toward the truth
or falsity of the publication, on his [or her] subjective
awareness of its probable falsity, and his [or her]
actual doubts as to its accuracy.” Costello v. Ocean
Cty. Observer, 643 A.2d 1012, 1024 (N.J. 1994). New
Jersey imposes a heightened standard in that the
plaintiff must establish actual malice by clear and
convincing evidence. Id. at 1022.

App.32a
The Supreme Court clarified the actual malice
standard in Garrison v. Louisiana, holding that reckless
disregard in the context of actual malice requires the
statements be made with a “high degree of awareness
of their probable falsity. . . . ” 379 U.S. 64, 74 (1964).
Public figures, moreover, are “permitted to recover in
libel only when they could prove that the publication
involved was deliberately falsified, or published recklessly despite the publisher’s awareness of probable
falsity.” Curtis Pub. Co. v. Butts, 388 U.S. 130, 153
(1967).
A “bald assertion by the publisher that he [or
she] believes in the truth of the statement may not
be sufficient” to protect the publisher from liability
for publication of the statement. Dairy Stores, Inc. v.
Sentinel Pub. Co., 516 A.2d 220, 232-33 (N.J. 1986)
(citing St. Amant, 390 U.S. at 732). “Notwithstanding
a publisher’s denial that it had serious doubts about
the truthfulness of the statement, other facts might
support an inference that the publisher harbored
such doubts.” Id. at 233. “Sufficient evidence [for a
finding in the plaintiff’s favor] does not exist . . . when
the only evidence offered is that the defendants
‘should have known the articles were false, or they at
least should have doubted their accuracy.’” Costello,
643 A.2d at 1023 (quoting Lawrence, 446 A.2d at 477).
Here, Carr has failed to raise a genuine dispute
of fact regarding whether Konowicz made the statements at issue with actual malice. Carr analogizes the
instant matter to Carson v. Allied News Co., 529
F.2d 206 (7th Cir. 1976), as support for his argument
that Konowicz fabricated his claims that the NWS
“called out” or “reprimanded” Carr for “spreading

App.33a
harmful misinformation.” (Countercl. Pl.’s Opp’n Br.
5-8.) Carr’s reliance on Carson is misplaced.
In Carson, John Carson and Joanna Holland
brought suit for the publication of an April 9, 1972
article with the headline “[NBC] Pays For Carson’s
Love Life! Move To Hollywood Is Just So Johnny Can
Be Near Miss Holland.” Carson, 529 F.2d at 208.
The gist of the article was that Carson’s Tonight
Show was moving from New York City to Hollywood
because Holland lived in Hollywood, California.
Carson, 529 F.2d at 211. Holland, however, did not live
in California. Id.
The article also emphasized that (1) Holland
was the cause of the break-up of Carson’s previous
marriage, and (2) there was a struggle between Carson
and NBC executives because Carson wanted to move
the show and the executives were resisting. Id. at
212. Based on the record before it, the Seventh Circuit
found that nothing in the record supported “the
published statements alleging or implying that Holland
broke up Carson’s prior marriage.” Id. The Seventh
Circuit concluded that those statements were “a sheer
fabrication by the defendants[,]” which the Supreme
Court has described as an express example of actual
malice. Id.
In relation to the supposed struggle between
Carson and the executives, Carson testified that he
had never personally discussed moving the show to
Hollywood with the executives. Id. Nevertheless, the
article included quotes purportedly from the executives
on the same subject. Id. The Seventh Circuit stated
that it “must be a canon that a journalist does not
invent quotations and attribute them to [an] actual
person[,]” and because the article’s writer had done

App.34a
this, there was evidence of a reckless disregard for
the truth. Id. at 213.
The Seventh Circuit held that Carson and Holland
had established their entitlement to have a jury
determine whether actual malice existed. Id. The
Seventh Circuit stated that based on the record, the
defendants “necessarily entertained serious doubts as
to the truth of the statements [in the article] and had
a high degree of awareness of their probable falsity.”

Id.

Here, the facts are entirely distinguishable from
the facts of Carson and the defendants’ conduct in
that matter. Whether the NWS, through Szatkowski,
“called out” or “reprimanded” Carr is debatable
depending on the reader’s interpretation of Szatkowski’s
statements. More importantly, a call out or reprimand,
because of the imprecision of the terms particularly
when used online, is not an objective fact that can be
readily determined. In contrast, the pertinent facts
in Carson were readily determinable. The Seventh
Circuit determined that (1) Holland did not live in
California; (2) the relationship between Holland and
Carson began after Carson’s prior marriage ended,
and (3) that alleged conversations between Carson and
NBC executives did not occur. Unlike the defendants
in Carson, Konowicz did not fabricate quotes and
attribute them to individuals who existed but did not
provide the statements. At worst, Konowicz’s statements were hyperbolic descriptions of Szatkowski’s
statements. Carr’s reliance on Carson, thus, is unpersuasive.
The record before the Court does not establish
that Konowicz made the statements with a reckless
disregard for the truth or knowledge of their probable

App.35a
falsity. The record shows that Szatkowski made
certain statements in response to Carr posting a
picture of a possible tornado. Konowicz interpreted
those statements, perhaps through the lens of his
ongoing dispute with Carr, and then made certain
statements of his own. The record before the Court
lacks any evidence showing, or even suggesting, that
Konowicz ever entertained a serious doubt regarding
the accuracy of his statements or that his attitude
towards the truth should subject him to liability for
defamation. Carr argues that his conversations with
Szatkowski proves that the NWS did not call out or
reprimand Carr. This argument is effectively that
Konowicz should have known that his statements
were false or at least doubted their accuracy. Carr,
however, cannot meet his burden based on evidence
of this type. See Costello, 643 A.2d at 1023. The
Court, accordingly, concludes that Carr has failed to
establish a genuine dispute of material fact regarding
whether Konowicz made the statements with actual
malice; nor has he established an entitlement to have
the facts put before a jury.
V.

Conclusion

For the reasons set forth above, the Court finds
that the statements at issue are not actionable as
defamatory statements. The Court also finds that
Carr has failed to raise a genuine dispute of material
fact regarding whether Konowicz made the statements
with actual malice. Konowicz, accordingly, is entitled
to summary judgment. An order consistent with this
Memorandum Opinion will be entered.

App.36a
/s/ Michael A. Shipp
United States District Judge
Dated: July 31st, 2019

App.37a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF NEW JERSEY
(JULY 31, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS, and ISARITHIM LLC,

Plaintiffs,
v.
JONATHAN P. CARR; SEVERE NJ
WEATHER, LLC, and WEATHER NJ, LLC,

Defendants.
________________________
Civil Action No. 15-6913 (MAS) (TJB)
Before: Michael A. SHIPP,
United States District Judge.
This matter comes before the Court upon Counterclaim Defendant Michael Konowicz’s (“Konowicz”)
Motion for Summary Judgment. (ECF No. 92.) Counterclaim Plaintiffs Jonathan P. Carr, Weather NJ, LLC,
and Severe NJ Weather LLC opposed. (ECF No. 98.)
For the reasons set forth in the accompanying
Memorandum Opinion, and other good cause shown,
IT IS on this 31st day of July, 2019 ORDERED
that:

App.38a
1.

Konowicz’s Motion for Summary Judgment
(ECF No. 92) is GRANTED.

2.

Because the accompanying Memorandum
Opinion cites sealed documents, the Court
files the accompanying Memorandum Opinion
under temporary seal. In order for the
Memorandum Opinion and the Court’s prior
Memorandum Opinion (ECF No. 99) to remain
under seal, either party must file a Motion
to Seal that comports with Local Civil Rule
5.3 by August 16, 2019. If neither party files
a Motion to Seal by this deadline, the seal
on the accompanying Memorandum Opinion
and the Court’s prior Memorandum Opinion
(ECF No. 99) will be lifted.
/s/ Michael A. Shipp
United States District Judge

App.39a
MEMORANDUM OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF NEW JERSEY FILED UNDER SEAL
[UNSEALED]
(MAY 31, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS, and ISARITHIM LLC,

Plaintiffs,
v.
JONATHAN P. CARR; SEVERE NJ
WEATHER, LLC, and WEATHER NJ, LLC,

Defendants.
________________________
Civil Action No. 15-6913 (MAS) (TJB)
Before: Michael A. SHIPP,
United States District Judge.
SHIPP, District Judge
This matter comes before the Court upon Defendants Jonathan P. Carr (“Carr”), Severe Weather, LLC
(“Severe Weather”), and Weather NJ, LLC’s (“Weather
NJ”) (collectively, “Defendants”) Motion for Summary
Judgment. (ECF No. 75.) Plaintiffs Michael Konowicz
a/k/a Michael Phillips (“Konowicz”) and Isarithm,

App.40a
LLC (collectively, “Plaintiffs”) opposed (ECF No. 90),
and Defendants replied (ECF No. 82). The Court has
carefully considered the parties’ arguments and decides
the motion without oral argument pursuant to Local
Civil Rule 78.1. For the reasons set forth below,
Defendants’ Motion for Summary Judgment is granted.
I.

Procedural Background

Plaintiffs initiated this suit on August 16, 2015,
asserting three causes of action against Defendants:
(1) Defamation, (2) violations of the Lanham Act, 15
U.S.C. § 1051 et seq., and (3) New Jersey Common
Law Unfair Competition. (Compl. ¶¶ 31-54, ECF No.
1.) On November 15, 2015, Defendants answered and
Carr counterclaimed with a single count of defamation
against Konowicz. (See generally Answer & Countercl.,
ECF No. 9.) On June 30, 2016, the Court granted
Defendants’ Motion for Judgment on the Pleadings
(ECF No. 12) and denied Plaintiffs’ Cross-Motion to
Amend (Order, ECF No. 16). On October 6, 2016, the
Honorable Tonianne Bongiovanni, U.S.M.J., granted
Plaintiffs’ Motion to Amend the Complaint. (ECF No.
24.)
On October 10, 2016, Plaintiffs filed an Amended
Complaint asserting the same three causes of action.
(Am. Compl., ECF No. 28.) On November 7, 2016,
Defendants filed an Answer to the Amended Complaint,
and Carr asserted the same single count of defamation
against Konowicz. (See generally Answer & Countercl.,
ECF No. 30.) The parties conducted discovery, and
Judge Bongiovanni resolved discovery disputes between
the parties. (See e.g., ECF No. 40.)
On May 11, 2018, Defendants filed a Motion for
Summary Judgment (Mot. for Summ. J., ECF No. 52),

App.41a
and Plaintiffs filed a Cross-Motion for Summary
Judgment (Mot. for Summ. J., ECF No. 55). On October
12, 2018, the Court terminated both parties’ respective
motions because of the parties’ mutual failure to comply
with Local Civil Rule 56.1 and Plaintiffs’ failure to
comply with Local Civil Rule 5.3. (Mem. Op., ECF No.
72.)
On October 22, 2018, pursuant to the Court’s October 12, 2018 Order, the parties re-filed their motions.
(See Mots. For Summ. J., ECF Nos. 75, 78.) Defendants’
motion addressed the procedural and substantive
deficiencies identified in the Court’s October 12, 2018
Memorandum Opinion. 1 Specifically, Defendants’
Statement of Undisputed Material Facts submitted
in conjunction with the current motion was filed as
a separate document, apart from the brief. (See Defs.’
Statement of Undisputed Material Facts (“SUMP”),
ECF No. 76-5.) Significantly, it provides a more
extensive recounting of the material facts than the
statement of facts Defendants submitted along with
their original motion.
On October 29, 2018, Plaintiffs filed opposition
papers that contained redactions, and Plaintiffs did
not file an unredacted version of the papers for the
Court’s review in accordance with Local Civil Rule
5.3. (See ECF Nos. 79, 81.) On December 12, 2018,
the Court ordered Plaintiffs to file unredacted versions
of Plaintiffs’ opposition papers within five days, or
Defendants’ motion would be considered unopposed.
1 Plaintiffs’ motion papers, however, again failed to comply Local
Civil Rule 5.3. Due to Plaintiffs’ repeated failure to comply with
the Local Civil Rules (See ECF Nos. 88, 96, 97), the Court
considers Plaintiffs’ motion separately.

App.42a
(Order, ECF No. 88.) On December 17, 2018, Plaintiffs
filed unredacted opposition papers. (See ECF Nos.
89, 90.)
Plaintiffs’ Opposition Brief, however, is the same
brief Plaintiffs filed in response to the version of
Defendants’ motion the Court previously terminated.
As a result, Plaintiffs’ brief contains a three-paragraph
“Responsive Statement of Material Facts” that purports
to respond to the “Statement of Undisputed Material
Facts” contained in Defendants’ brief. (Pls.’ Opp’n Br.
6, ECF No. 90.) Defendants’ brief, however, does not
contain a “Statement of Undisputed Facts” as Defendants corrected that issue when they refiled their
motion. (See Defs.’ Moving Br. 5, 22, ECF No. 76-1;
L.Civ.R. 56.1.) These three paragraphs purport to admit
and deny facts that are no longer alleged in Defendants’
brief. Moreover, they are entirely unresponsive to the
new and significantly different statement of facts
submitted as a separate document in support of
Defendants’ motion. The Court, accordingly, disregards
Plaintiffs’ Responsive Statement of Material Facts.
Plaintiffs’ Opposition Brief contains a threeparagraph Supplemental Statement of Disputed
Material Facts. (Pls.’ Opp’n Br. 6-7.) These paragraphs
violate Local Civil Rule 56.1 as they are arguments
and conclusions of law. L.Civ.R. 56.1 (“Each statement
of material fact . . . shall not contain legal argument or
conclusions of law.”). The Court, accordingly, disregards
Plaintiffs’ Supplemental Statement of Disputed
Material Facts.
Plaintiffs’ opposition papers include a Counterstatement of Disputed Facts in which Plaintiffs, in
accordance with Local Civil Rule 56.1, admitted, denied,
or denied as material each paragraph of Defendants’

App.43a
SUMF. (See Pls.’ Counterstatement of Undisputed
Material Facts (“CDF”), ECF No. 90-7.) The Court
considers Plaintiffs’ CDF.
II.

Factual Background2

The instant matter arises from a series of statements made by Carr regarding Plaintiffs. (See Am.
Compl. ¶¶ 22-37.) Carr is a weather enthusiast who
operates Weather NJ 3 through a website, www.
weathernj.com, and social media platforms including:
Facebook, Twitter, Instagram, and YouTube. (SUMF
¶ 1.) Carr began forecasting weather in or about February 2010 under the name Severe NJ Weather. (Id.
¶ 2.) Presently, Carr has 225,000 followers.4 (Id. ¶ 7.)
Carr avers that his “weather reporting activities remain
‘just a hobby[,]’’’ and that he earns on average $1,100
per month, and never more than $17,000 in a year,
from his weather related activities. (Id ¶ 13.) Plaintiffs
deny that Carr’s “weather-related activities constitute
a hobby.” (CDF ¶ 13.)
Konowicz is a “professional, accredited meteorologist” who uses the professional name “Michael Phillips.”
(Am. Compl. ¶ 9.) Konowicz operates a website, www.
weatherboy.com, and has a presence on several social
2 The Court’s factual summary draws primarily from Defendants’
SUMF. As necessary, the Court notes where Plaintiffs’ CDF
disputes a fact.
3 Weather NJ was formerly known as Severe NJ Weather.
(SUMF ¶ 1.)
4 Carr avers that he has 225,000 followers but does not indicate
how these followers are distributed across his social medial
platforms and his website. (Id. ¶ 7 (citing Decl. of Jonathan Carr
¶ 7, ECF No. 76-2).)

App.44a
media platforms. (Id. ¶ 11.) Konowicz previously owned
the registered trademark for Weatherboy . . . until he
assigned the trademark to Isarithm. (Id. ¶ 12.) Konowicz
obtained a Certificate in Broadcast Meteorology from
Mississippi State University (“MSU”) and is a “full
Member” of the American Meteorological Society (“AMS”).
(Id. ¶ 10.)
On December 8, 2014, Carr, using the Twitter
username “@myWeatherNJ,” posted the following statement on Twitter: “Real name Michael Konowicz. No
degree or AMA record. fake audience.”5 (SUMF ¶ 55.)
The comment was part of a thread initiated by a
third party. (SUMF 50-55; Defs.’ Moving Br., Ex. 22)
Plaintiffs admit that the statements in the thread
were made. (CDF ¶¶ 50-55.) Plaintiffs, however, dispute
the substantive truth of the statements. (See CDF
¶¶ 50-55.)
Carr asserts that there were four bases for the
December 2014 Statement. (SUMF ¶ 56.) First, that he
knew “that the Weatherboy’s real name was Michael
Konowicz because two of [Konowicz’s] Facebook
followers had sent [Carr] his real identity.” (Id. ¶ 57.)
Second, that “based on Google searches, [Carr] could
find no record of . . . Konowicz having a meteorology
degree[,]” and that Konowicz’s “Linked-In profile . . .
makes no mention of any relevant degrees in meteorology.” (Id. ¶ 58.) Third, Carr “checked for . . .Konowicz
on listings kept by the AMS,” and Konowicz was not
among listings for either of the AMS’s accreditation
programs. (Id. ¶ 59.) Fourth, that for nearly a year,
5 The Court refers to this statement as the “December 2014
Statement.” Additionally, while Carr wrote “AMA,” the parties
interpret the statement to refer to the AMS. (See e.g. CDF ¶ 55.)

App.45a
Carr had seen online posts “presenting what he
believed at the time (and still believes to this day)
to be overwhelming evidence that . . . Konowicz was
purchasing ‘fake’ likes in order to fraudulently boost
the social media presence of Weatherboy Weather.”
(Id. ¶ 60.)
Plaintiffs admit Carr’s first basis for the December 2014 Statement. (CDF ¶ 57.) Plaintiffs admit an
unknown part of Carr’s second basis for the statement
and state that Carr could have inquired with MSU
regarding whether Konowicz had attained the same
certificate Mike Masco6 holds. (See CDF ¶ 58.) Plaintiffs
deny Carr’s third basis and insist that “Konowicz is a
member of AMS.” (Id ¶ 59.) Plaintiffs deny Carr’s
fourth basis for the December 2014 Statement and
“maintain[ ] that alleged evidence of false social media
engagement was created by [David] Tolleris and
Masco.”7 (Id. ¶ 60.)
On February 21, 2015, Carr, as “@WeatherNJ,”
posted the following statements on Twitter: “careful
of Weatherboy Weather. Total fraud. Have unsettling
proof”; and “records on Michael Konowicz. Not a
pro met. Not a member of AMS.” 8 (SUMF ¶¶ 6475.) The comments were part of a thread initiated
on Weatherboy’s Twitter feed. (SUMF ¶ 64; Defs.’
Moving Br., Ex. 22; Pls.’ Opp’n Br. Ex. E.) Plaintiffs admit that the statements in the thread were
6 Mike Masco is a meteorologist for an ABC affiliate in Baltimore,
Maryland. (SUMF ¶ 38.)
7 David Tolleris is a meteorologist. (Id. ¶ 46.)
8 The Court refers to these statements as the “February 2015
Statements.”

App.46a
made. (CDF ¶¶ 64-65.) Plaintiffs dispute the substantive truth of the statements. (CDF ¶¶ 64-75.)
Carr relied on five bases for the February 2015
Statements. (SUMF ¶ 66.) The first four bases are
the same bases that he relied on when making the
December 2014 Statement. (Compare SUMF ¶¶ 5660, with SUMF ¶¶ 66-70.) Carr’s fifth basis is that he
“continued to monitor the Weatherboy’s engagement
anomalies, fraudulent ‘likes’ from Turkey and other
foreign nations, and lack of transparency regarding
the identity of his ‘team members,’ and this served to
“‘strengthen [Carr’s belief]’ that the Weatherboy was
engaging in fraudulent practices in order to misrepresent himself to the public and boost his social
media profile.” (Id. ¶ 71.)
Plaintiffs repeat the same admissions, denials,
and arguments regarding Carr’s first four bases for
the February 2015 Statements as Plaintiffs proffered
for the December 2014 Statement. (Compare CDF
¶¶ 56-60, with CDF ¶¶ 66-70.) Plaintiffs deny Carr’s
fifth basis, asserting that “Plaintiffs’ engagement was
primarily from the United States[,]” and that Plaintiffs
“worked with a team of meteorologists at the time.”
(CDF ¶ 71.) Plaintiffs also deny “purchasing ‘likes’[.]”
(Id. ¶ 71.)
On March 2, 2015, Carr, responding to a Twitter
post by @Weatherboy, posted the following comments:
“Chicago story fake. No names. No credentials. No
supporting media. Shots similar to other images on
Google images”; “Keep sponsoring fake articles to
fake audience while impersonating a fake team of
meteorologists. #stayclassy”; “541 likes on a sponsored
article to a fan-base of 250k. Sorry, that proves dirty
pool. For real unparalleled trust and reach see . . . my

App.47a
page”; and “just some guy impersonating a team of
meteorologists practicing horrible journalism.”9 (See
SUMF ¶¶ 76-88; Ain. Compl. Ex. 4, ECF No. 28-1.) The
comments were part of a thread initiated by Konowicz,
on his own Twitter page, in which he stated that he
had been invited by United Airline’s global headquarters in Chicago to “better understand their winter
weather ops.” (Id. ¶ 76.) Plaintiffs admit the March
2015 Statements were made, but dispute their truth.
(CDF ¶¶ 76-78.)
Carr states that he relied upon six bases in making
these statements. (SUMF ¶ 79.) Five of the six bases
are the same bases for his previous statement.
(Compare SUMF ¶¶ 66-70, with SUMF ¶¶ 80-86.)
Carr’s sixth basis was that he “used Google Images
to search for the images that the Weatherboy used in
his posting. That search revealed very similar images,
which led [Carr] to believe that the Weatherboy had
simply copied the images from public sources on the
Internet.” (SUMF ¶ 85.)
Plaintiffs repeat the same admissions, denials,
and arguments regarding the first five bases for the
March 2015 Statements as Plaintiffs proffered for
the February 2015 Statements. (Compare CDF ¶¶ 6670, with CDF ¶¶ 80-84.) In regard to Carr’s sixth
basis, Plaintiffs “[admit] that [Carr] searched” and
9 The Court refers to these statements as the “March 2015 Statements.” Defendants’ SUMF does not explicitly identify all the
statements Carr made on March 2, 2015, as shown in Exhibit 4 to
the Amended Complaint. (Compare SUMF ¶¶ 76-88 with Am.
Compl. Ex. 4, ECF No. 28-1.) Defendants, nevertheless, cite to
the Amended Complaint and Exhibit 4 in the SUMF. (SUMF
¶¶ 76-78.) The Court, accordingly, does not view Defendants’
failure to cite all of the statements as a material fact in dispute.

App.48a
“[deny] as to any conclusion [Carr] drew from ‘very
similar images.’’’ (CDF ¶ 85.) Plaintiffs state that
Konowicz “was invited to Chicago and provided a
letter confirming his visit afterward.” (Id. ¶ 85.)
On June 23, 2015, one of Carr’s online followers
sent Carr a photo of what the sender thought was a
tornado. (SUMF ¶ 91.) Carr posted the same photo
on Facebook. (Id. ¶ 91.) Konowicz took the photo and
posted it on his own webpage with a red line through
it, and included a warning that the National Weather
Service (“NWS”) was still investigating whether what
was depicted in the photo was a tornado. (Id. ¶ 92.)
In the same post, Konowicz stated that the NWS had
“taken a stand against [Carr]” and had been “very
vocal in calling [Carr] out for spreading harmful misinformation.” (Id. ¶ 93.) The parties dispute whether
Carr was “reprimanded” or “called out.” (Compare
SUMF ¶ 91, with CDF ¶ 91.)
Carr contacted Gary Szatkowski at the NWS to
confirm whether the NWS had reprimanded him, and
Szatkowski responded. (SUMF ¶¶ 96-97.) In separate
tweets, Szatkowski stated:
Sorry, but the sun is out. Worst of storm has
moved on. Why would that be a tornado?
***
Well, I just think it’s misrepresented as a
tornado. But others can have different opinions.
***
To be confirmed tornado, a damage survey
must be done. It must have a start and end
point. Maximum wind speed is evaluated.

App.49a
***
For that ever to be more than a pretty picture
of an interesting cloud, that is what must
happen.
***
If its not important that it be confirmed as a
tornado, [then] call it what you wish. I simply
won’t be able to concur.
(Id.)
On June 25, 2015, Carr published an article
entitled “Beware of the fake ‘Team of Meteorologists”’
(the “June 2015 Article”) on Weather NJ’s website.
(SUMF ¶ 98, Ex. 5.) Defendants aver that this article
repeated statements Carr previously made on Twitter,
“including: (1) Weatherboy’s fraudulent, purchased
‘likes’ and followers on his social media accounts; (2)
his history of low engagement rates despite a large
audience because he purchases ‘likes’ and ‘followers’;
(3) his lack of transparency regarding the identities
and credentials of himself and his ‘team members’;
and, (4) his history of attacks on [Defendant] and
other members of the online weather community.”
(SUMF ¶ 99.)
Carr asserts that he had seven bases for the
June 2015 Article. (SUMF ¶ 100.) Six of the seven
bases are the same bases for the March 2015 Statements. ( Compare SUMF ¶¶ 80-86, with SUMF
¶¶ 101-106.) Can’s seventh basis was Konowicz’s
statement regarding the online dispute over the
alleged reprimand by the NWS, Szatkowski’s confirmation that the NWS had not reprimanded Carr, and

App.50a
that Szatkowski was “not aware of any problems”
with Carr. (SUMF ¶ 107.)
Plaintiffs repeat the same admissions, denials,
and arguments regarding the first six bases for the
March 2015 Statements as proffered for the June
2015 Article. (Compare CDF ¶¶ 80-86, with CDF
¶¶ 101-106.) Regarding the seventh basis, Plaintiffs
assert that “Weatherboy’s post was false as the NWS
had called Carr out for making his post and Defendants’
post was misleading.” (Id. ¶ 107.)
On July 8, 2015, Plaintiffs’ Counsel sent Defendants a cease-and-desist letter. (Decl. of Jonathan Carr
(“Carr Decl.”), Ex. 32, ECF 76-3.) In that correspondence, Plaintiffs’ Counsel stated that Konowicz is “a
full ‘Member’ of AMS, a designation which is reserved
for those that demonstrate ‘professional or scholarly
expertise in the atmospheric or related sciences,
technologies, applications, or services.’’’ (Id.) After the
instant lawsuit was filed, Defendants’ Counsel applied
to become a member of the AMS, and received an AMS
Membership Certificate similar to Konowicz’s AMS
Membership Certificate. (SUMF ¶142. Compare Carr
Decl., Ex. 34, with Carr Decl. Ex. 35.) On February
8, 2016, Plaintiffs’ Counsel sent Defendants’ Counsel
a cease-and-desist letter. (Decl. of David P. Heim, Ex.
L, ECF No. 90-8.)
III. Legal Standard
Summary judgment is appropriate if the record
demonstrates “that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250
(1986). A material fact—a fact “that might affect the

App.51a
outcome of the suit under governing law,” Anderson,
477 U.S. at 248—raises a “genuine” dispute if “a reasonable jury could return a verdict for the nonmoving
party.” Williams v. Borough of W. Chester, 891 F.2d
458, 459 (3d Cir. 1989) (quoting Anderson, 477 U.S.
at 248). To determine whether a genuine dispute of
material fact exists, the Court must consider all facts
and reasonable inferences in a light most favorable
to the non-movant. Curley v. Klem, 298 F.3d 271,
276-77 (3d Cir. 2002). The Court will not “weigh the
evidence and determine the truth of the matter” but
will determine whether a genuine dispute necessitates a trial. Anderson, 477 U.S. at 249.
The party moving for summary judgment has
the initial burden of proving an absence of a genuine
dispute of material fact. Celotex Corp. v. Catrett, 477
U.S. 317, 330 (1986). Thereafter, the nonmoving party
creates a “genuine [dispute] of material fact if it has
provided sufficient evidence to allow a jury to find [for
him] at trial.” Becton Dickinson & Co. v. Wolckenhauer,
215 F.3d 340, 343 (3d Cir. 2000)
A. Defamation
A defamation claim has three elements: “(1) the
assertion of a false and defamatory statement concerning another; (2) the unprivileged publication of that
statement to a third party; and (3) fault amounting at
least to negligence by the publisher.” G.D. v. Kenny,
15 A.3d 300, 310 (N.J. 2011) (quoting DeAngelis v. Hill,
847 A.2d 1261, 1267 (N.J. 2004)). In cases where the
plaintiff is a public figure, the plaintiff also must
establish that the defendant made the statements at
issue with “actual malice.” NY. Times Co. v. Sullivan,
376 U.S. 254, 280 (1964). “Actual malice has ‘nothing

App.52a
to do with hostility or ill will;’ rather it concerns [a]
publisher’s ‘state of knowledge of the falsity of
what he published, not at all upon his motivation in
publishing it.’” DeAngelis, 847 A.2d at 1270 (N.J.
2004) (quoting Lawrence v. Bauer Pub. & Printing Ltd.,
446 A.2d 469, 477 (N.J. 1982)).
“[C]ourts have recognized that the perpetuation
of meritless actions, with their attendant costs, chills
the exercise of free speech about public affairs.”
Berkey v. Estate of Stuart, 988 A.2d 1201, 1209 (N.J.
Super. Ct. App. Div. 2010). Accordingly, “trial courts
should not hesitate to use summary judgment procedures where appropriate to bring such actions to a
speedy end.” Id. “On the other hand, the actual-malice
standard entails a subjective analysis of the defendant’s
state of mind[,]” and “the issue of a defendant’s state
of mind in a defamation action ‘does not readily lend
itself to summary disposition.’” Id. (quoting Maressa
v. N.J. Monthly, 445 A.2d 376, 386 n.10 (N.J. 1982)).
“Courts should carefully examine the circumstances
surrounding publication of defamatory allegations of
fact to determine whether the issue of actual malice
should go to the jury.” Id.
B. The Lanham Act
Section 43(a) of the Lanham Act provides, in
pertinent part:
Any person who, on or in connection with
any . . . services, . . . uses in commerce any
word, term, name, symbol, or device, or any
combination thereof, or any false designation
of origin, false or misleading description of
fact, or false or misleading representation of
fact, which . . . in commercial advertising or

App.53a
promotion, misrepresents the nature, characteristics, qualities, or geographic origin of his
or her or another person’s goods, services, or
commercial activities, shall be liable in a
civil action by any person who believes that
he or she is or is likely to be damaged by such
act.
15 U.S.C. § 1125(a)(1)(B).
The Lanham Act does not define “advertising”
or “promotion.” However, courts have held
that commercial advertising or promotion consists of four elements: (1) commercial speech;
(2) by a defendant in commercial competition
with the plaintiff; (3) for the purpose of
influencing customers to buy the defendant’s
goods or services; and (4) disseminated sufficiently to the relevant purchasing public to
constitute “advertising” or “promotion” within
the industry.

Bracco Diagnostics, Inc. v. Amersham Health, Inc.,
627 F. Supp. 2d 384, 456 (D.N.J. 2009).
“Every circuit that has addressed the issue has
found that the Lanham Act restricts only commercial
speech, as commercial speech is entitled to reduced
protection under the First Amendment.” Farah v.
Esquire Magazine, Inc., 863 F. Supp. 2d 29, 40 (D.D.C.
2012) (collecting cases), aff’d sub nom., Farah v. Esquire
Magazine, 736 F.3d 528 (D.C. Cir. 2013). The Third
Circuit Court of Appeals has not explicitly held that
the Lanham Act only applies to commercial speech.
Nevertheless, the District Court for the Eastern District of Pennsylvania recently dismissed Lanham Act
claims because the statements at issue were not

App.54a
commercial speech. See Golo, LLC v. Highya, LLC, 310
F. Supp. 3d 400, 507 (E.D. Pa. 2018) (“[The] [d]efendants’ reviews of [the] [p]laintiff’s product do not
qualify as commercial speech, with the result that
[the] [p]laintiff’s Lanham Act claims and state law
unfair competition claim must be dismissed.”).
C. New Jersey Common Law Unfair Competition
Under New Jersey common law, relief is granted
for the tort of unfair competition upon the following
grounds:
[E]ither that the means are dishonest, or that,
by imitation of name or device, there is a
tendency to create confusion in the trade,
and enable the seller to pass off upon the
unwary his goods as those of another, and
thereby deceive the purchaser; or that, by
false representation, it is intended to mislead
the public, and induce them to accept a
spurious article in the place of one they
have been accustomed to use.

Squeezit Corp. v. Plastic Dispensers, 106 A.2d 322, 325
(N.J. Super. Ct. App. Div. 1954) (citation omitted).
“There is no distinct cause of action for unfair
competition. It is a general rubric which subsumes
various other causes of action.” C.R. Bard, Inc. v.
Wordtronics Corp., 561 A.2d 694, 696 (N.J. Super.
Ct. App. Div. 1989). This is because it is intended to
encompass generally unfair play in the commercial
arena: “the concept is deemed as flexible and elastic
as the evolving standards of commercial morality
demand.” Ryan v. Carmona Bolen Home for Funerals,
775 A.2d 92, 95 (N.J. Super. Ct. App. Div. 2001) (inter-

App.55a
nal quotation marks and citation omitted). “The judicial goal should be to discourage, or prohibit the use
of misleading or deceptive practices which renders
competition unfair.” Id. “Generally, . . . unfair competition claims under New Jersey statutory and
common law mirror unfair competition claims under
. . . the Lanham Act.” Cozzens v. DaveJoe RE, LLC,
No. 17-11535, 2019 WL 522071, at *4 (D.N.J. Feb.
11, 2019) (quotations omitted).
IV. Discussion
Defendants advance two principal legal arguments
in support of their Motion for Summary Judgment:
(1) that Plaintiffs have failed to establish actual malice
in publishing the allegedly defamatory statements;
and (2) that summary judgment on Plaintiffs’ Lanham
Act claim should be granted in Defendants’ favor
because the statements at issue in the matter were not
commercial in nature. (Defs.’ Moving Br. 5, 22.) The
central proposition of Defendants’ motion, as related
to Plaintiffs’ defamation claim, is that at the time
Carr made the statements, Carr believed in the truth
of his statements and his belief was supported by
objective facts which he observed. (See id. at 11, 15,
18, 20 (discussing Carr’s investigations and beliefs at
the time he made the statements).) Regarding Plaintiffs’
Lanham Act claim, Defendants argue that Carr’s
statements are not “commercial advertising or promotion” under 15 U.S.C. § 1125(a)(1)(B). (Id. at 22.)
Defendants advance no specific arguments regarding
Plaintiffs’ Unfair Competition claim. (See generally
id.)
Plaintiffs oppose Defendants’ motion arguing that
Carr published the statements at issue “knowing

App.56a
that they were false or with a reckless disregard for
their truth or falsity” and that Carr’s “statements fit
squarely within the parameters of commercial speech
as identified by the Supreme Court.” (Pls.’ Opp’n Br.
5.) Plaintiffs also argue that, at the least, there are
genuine disputes of material fact and summary judgment must be denied. (Id. at 5.)
After a careful review of the record, including
exhibits containing numerous hard-to-read printouts
of social media posts, the Court concludes that there
are no genuine disputes of material fact and Defendants
are entitled to summary judgment on all claims.
Furthermore, the Court finds that Carr’s statements
are not commercial speech or advertising, thus the
statements are not actionable under the Lanham Act.
A. Konowicz Is a Public Figure
The threshold inquiry is whether Konowicz is a
public figure. Schwartz v. Worrall Publ’ns, Inc., 610
A.2d 425, 428 (N.J. Super. Ct. App. Div. 1992) (“[T]he
judge should decide at the threshold whether a
defamation plaintiff is a public official or figure since
the existence of the New York Times privilege is
itself dependent on the status of the person defamed.”).
The Supreme Court has identified two types of public
figures: (1) general public figures and (2) public figures
for a limited purpose. A general-purpose public figure
is defined as someone “who, by reason of the notoriety
of their achievements or the vigor and success with
which they seek the public’s attention, are properly
classed as public figures. . . . ” Gertz v. Robert Welch,
Inc., 418 U.S. 323, 342 (1974). “Some [people] occupy
positions of such persuasive power and influence that
they are deemed public figures for all purposes.” Id.

App.57a
at 345. Others, however, are only public figures by
virtue of the limited controversy in which they find
themselves. Id.
The New Jersey Supreme Court interpreted the
Supreme Court’s holding regarding limited purpose
public figures as follows:

Gertz refrains from establishing specific
criteria against which a plaintiff’s status can
be measured to determine whether or not he is
a public figure. Rather in instances where the
plaintiff is not a public figure for all purposes,
Gertz calls for a case-by-case examination
“looking to the nature and extent of an
individual’s participation in the particular
controversy giving rise to the defamation.”
Important factors that led the Court to
conclude that the Gertz plaintiff was not a
public figure included [the] plaintiff’s lack of
any calculated relationship with the press
and the fact that he neither “thrust himself
into the vortex of this public issue, nor
[engaged] the public’s attention in an attempt
to influence its outcome.”

Lawrence v. Bauer Pub. & Printing Ltd., 446 A.2d 469,
475 (N.J. 1982) (quoting Gertz, 418 U.S. at 352)
(internal citations omitted); accord MacKay v. CSK
Pub. Co., 693 A.2d 546, 554 (N.J. Sup. Ct. App. Div.
1997).
Here, the parties appear to agree that Konowicz
is a public figure. Plaintiffs submitted evidence
regarding Konowicz’s prominent place in the meteorological community, beginning when Konowicz appeared
on the David Letterman show in high school. (Pls.’

App.58a
Opp’n Br., Ex. L-A (“Monroe teenager is TV’s Weatherboy”.) Additionally, Plaintiffs submitted many articles
written by and about Konowicz in relation to meteorology. (See Pl.’s Reply Br., Exs. A, L-B, L-C.) Plaintiffs’
Twitter account, username “Weatherboy,” has at least
20,000 followers, and at one time had many more.
(Defs.’ Moving Br., Ex. 43.) According to Plaintiffs,
Konowicz’s page has received over 270,000 “likes, and
@Weatherboy on Twitter has over 104,000 followers.
Finally, after Defendants advanced arguments based
on the conclusion that Konowicz is a public figure,
Plaintiffs did not dispute this conclusion and advanced
arguments assuming Konowicz is a public figure.
(Pls.’ Opp’n Br. 8-23; Defs.’ Moving Br. 5-22.) The Court,
accordingly, finds that Konowicz is a public figure.
B. Plaintiffs Have Not Raised a Genuine Dispute
of Material Fact Regarding Actual Malice
In New York Times v. Sullivan, the Supreme
Court held that in instances where the plaintiff is a
“public figure,” the plaintiff must establish that the
defendant made the statements at issue with “actual
malice.” 376 U.S. 254, 279-80 (1964). In Saint Amant
v. Thompson, the Supreme Court analyzed the actual
malice standard and held that a defendant who made
statements about his opponent’s character in a political
race was not liable for defamation, despite the defendant’s failure to investigate and lack of consideration
of the consequences for the plaintiff. 390 U.S. 727,
732-33 (1968). Actual malice requires evidence that
the defendant entertained serious doubts about the
veracity of his statements. Id. at 731. The actual
malice standard does not ask whether a reasonably
prudent person would have published the statements
in similar circumstances. Id. “Rather, the focus of the

App.59a
‘actual malice’ inquiry is on a defendant’s attitude
toward the truth or falsity of the publication, on his
subjective awareness of its probable falsity, and his
actual doubts as to its accuracy.” Costello v. Ocean
Cty. Observer, 643 A.2d 1012, 1024 (NJ. 1994). New
Jersey imposes a heightened standard in that the
plaintiff must prove actual malice by clear and convincing evidence. Id. at 1022.
The Supreme Court clarified the actual malice
standard in Garrison v. Louisiana, holding that reckless
disregard in the context of actual malice requires the
statements be made with a “high degree of awareness
of their probable falsity . . . ” 379 U.S. 64, 74 (1964).
Public officials, moreover, are “permitted to recover
in libel only when they could prove that the publication
involved was deliberately falsified, or published recklessly despite the publisher’s awareness of probable
falsity.” Curtis Pub. Co. v. Butts, 388 U.S. 130, 153
(1967).
A “bald assertion by the publisher that he believes
in the truth of the statement may not be sufficient[,]”
to protect the publisher from liability for publication
of the statement. Dairy Stores, Inc. v. Sentinel Pub.
Co., 516 A.2d 220, 232-33 (N.J. 1986) (citing St. Amant,
390 U.S. at 732). “Notwithstanding a publisher’s
denial that it had serious doubts about the truthfulness
of the statement, other facts might support an
inference that the publisher harbored such doubts.”
Id. At 233.
The finder of fact must determine whether
the publication was made in good faith. Professions of good faith will be unlikely to prove
persuasive, for example, where a story is
fabricated by the defendant, is the product

App.60a
of his imagination, or is based wholly on an
unverified anonymous telephone call. Nor will
they be likely to prevail when the publisher’s
allegations are so inherently improbable
that only a reckless man would have put them
in circulation. Likewise, recklessness may
be found where there are obvious reasons to
doubt the veracity of the informant or the
accuracy of his reports.

St. Amant, 390 U.S. at 732. “Sufficient evidence [for
a finding in the plaintiff’s favor] does not exist . . . when
the only evidence offered is that the defendants
‘should have known the articles were false, or they at
least should have doubted their accuracy.’” Costello,
643 A.2d at 1023 (quoting Lawrence v. Bauer Pub. &
Printing Ltd., 446 A.2d 469, 477 (N.J. 1982)).
[T]ruth is a defense to a defamation action
even if a report on a matter of public concern
contains minor inaccuracies. But a statement
that is not substantially accurate, a statement
whose “substance,” “gist,” and “sting” cannot
be justified will not be protected under the
shield of truth. [The plaintiff] bears the
burden of proving that the defamatory
statements were not substantially accurate
and therefore false.

Kenny, 15 A.3d at 316-17 (citations omitted).
1. The December 2014 Statement
Here, despite Plaintiffs’ denials of Carr’s bases for
the December 2014 Statement, Plaintiffs have not
demonstrated that there is a material fact in dispute
requiring a jury to determine whether the December

App.61a
2014 Statement was made with actual malice. Specifically, none of Plaintiffs’ denials of facts show that
Carr entertained serious doubts about the falsehood
of the December 2014 Statement at the time the
statement was made. For example, Plaintiffs aver
that Carr could have contacted MSU to inquire
whether Konowicz held a certificate from MSU. (CDF
¶ 58.) This, however, could not establish that when
Carr made the December 2014 Statement, Carr
knew that Konowicz held the certificate from MSU or
that Carr entertained any doubts regarding the truth
of the statement.
Both parties dedicate a significant portion of their
briefs and Rule 56.1 statements to debating whether
Konowicz is a member of the AMS. In Defendants’
view, Konowicz’s membership as a “full member” is
materially distinguishable from two accreditation
programs AMS provides. (See Defs.’ Moving Br. 1618.) Defendants state that AMS accredits (1) Certified
Broadcast Meteorologists and (2) Certified Consulting
Meteorologists, and that Konowicz does not have either
accreditation. (SUMF ¶¶ 137-140.) Defendants insist
that the only “membership” Konowicz holds from
AMS is the same membership Defendants’ counsel
secured from AMS. (Id. ¶ 142.) Plaintiffs insist that
Defendants have admitted that Konowicz is a member
of AMS, and that is sufficient to show that Carr’s
statement was false. (See CDF ¶ 141; Pls.’ Opp’n Br.
18-20.)
Plaintiffs’ proffered facts and arguments regarding
his AMS membership are unavailing. The relevant
issue is whether Plaintiffs can show that Carr
publicized the statement that Konowicz was not a
member of AMS with actual malice or reckless dis-

App.62a
regard for the truth. On this issue, Plaintiffs have
failed to proffer any evidence to raise a genuine
dispute regarding whether at the time Carr made the
December 2014 Statement he entertained any doubts
as to the accuracy of the statement or that he was
aware of the potential falsity of the statement. Rather,
Carr’s online investigation supports Defendants’
position regarding Carr’s belief in the truth of the
statement. Plaintiffs have not pointed the Court to
any evidence to contradict these facts. Thus, while
Konowicz may be a member of AMS per his operative
definition of a “full member” and in direct contradiction to Carr’s operative definition of membership,
that fact does not raise a genuine dispute over
whether Carr made the statement with knowledge
of its falsity or with reckless disregard.
Plaintiffs assert that Carr’s fourth basis for the
December 2014 Statement—prior social media posts
by third parties—is false. (CDF ¶ 60.) Assuming,
arguendo, Plaintiffs are correct, and these third-party
social media posts were substantively false, Plaintiffs
have cited no facts suggesting that Carr would have
known, or should have known, about the falsity of these
posts prior to making the December 2014 Statement.
Plaintiffs merely deny the veracity of Defendants’
proffered facts, not whether Carr himself questioned
the veracity of the posts. (CDF ¶ 60.)
In sum, Defendants have proffered facts about
the bases for Carr’s belief that the December 2014
Statement was true at the time he made the statement.
(SUMF ¶ 56-63.) In response, Plaintiffs either admitted
or denied those bases and proffered facts regarding
the truth of the information Carr states were the
bases of his beliefs. (See CDF ¶¶ 56-63.) Plaintiffs,

App.63a
however, have offered no facts suggesting that Carr
entertained any doubt regarding the truth of his
statements. Plaintiffs, accordingly, have not raised a
genuine dispute of material fact.
Plaintiffs repeat their approach of attacking the
truth of the facts that Defendants advance in support
of their motion for summary judgment for each of the
remaining statements. While the Court analyzes each
statement on its own, Plaintiffs’ fail to bring to the
Court’s attention sufficient, if any, evidence to raise
a genuine dispute of material fact regarding Carr’s
attitude toward the falsity of his statements, his subjective awareness of the probable falsity of his statement, or whether Carr had actual doubts regarding
the accuracy of his statements. Moreover, because the
Court concludes that Plaintiffs failed to meet their
burden to raise a genuine dispute of material fact,
the Court does not analyze whether the substantive
truth of the statements would serve as a defense.
2. The February 2015 Statements
Despite Plaintiffs’ denials of Defendants’ bases for
the February 2015 Statements, Plaintiffs have failed
to reference evidence of record sufficient to raise a
material dispute of fact regarding the February 2014
Statement. Specifically, Plaintiffs’ denial of Defendants’ fifth basis for the February 2015 Statement is
based on the substantive truth of (1) whether Plaintiffs’ social media and online engagement was from
the United States, or other countries, (2) whether
Plaintiffs purchased “likes”, (3) and the identity of
Plaintiffs’ team members. (CDF ¶ 71.) This denial
does not address Carr’s attitude toward the truth or
falsity of the statements nor does it address Carr’s

App.64a
subjective awareness of the probable falsity, and his
actual doubts about the accuracy of the statements.
The fact that Carr “monitored . . . [Plaintiffs’] engagement anomalies,” and made certain conclusions
regarding his observations suggests that Carr did
not entertain a serious doubt about the truth of the
February 2015 Statement. (SUMF ¶ 71.) Plaintiffs
do not dispute that Carr monitored Plaintiffs’ engagement or that he drew certain conclusions. (See CDF
¶ 71.) As a result, Plaintiffs cannot meet their burden
of establishing that there is a material fact in dispute.
3. The March 2015 Statements
Plaintiffs have not met their burden of showing
that there is a material fact in dispute regarding the
March 2015 Statements. The parties disagree about
the substantive truth of the March 2015 Statements,
specifically whether Konowicz was invited by United
Airlines to see its weather-related operations and
whether Konowicz attended the same. Plaintiffs admit
that Carr conducted a Google search and located
images similar to those he viewed regarding Konowicz’s
social media. (CDF ¶ 85.) While Plaintiffs deny that
Carr came to certain conclusions regarding the
similarity between the images, Plaintiffs do not point
the Court to any evidence supporting that denial.
(See id.) Plaintiffs bear the burden of demonstrating
that there is a material fact in dispute, and cannot
do so merely by denying the truth of Carr’s March
2015 Statements and what conclusions Carr drew
from his internet searching for similar images.

App.65a
4. The June 2015 Article
As with the previous statements, Defendants have
advanced facts that establish the bases for Carr’s
belief that the statements he made in the June 2015
Article were true at the time he made them. (SUMF
¶¶ 100-110.) In response, Plaintiffs either admitted
those bases, or denied the bases and offered facts that
speak to the underlying veracity of the statements.
(CDF ¶¶ 100-110.) Despite Plaintiffs’ denials of Defendants’ bases for the statements made within the June
2015 Article, Plaintiffs have failed to offer any evidence
that Carr made these statements while knowing they
were false or with reckless disregard of their probable
falsity. Moreover, assuming that the statements by
Gary Szatkowski were “reprimands” does little to help
Plaintiffs meet their burden. Carr’s statement disputing whether he was reprimanded by the NWS is not
in and of itself defamatory of Plaintiffs. Plaintiffs,
accordingly, have failed to meet their burden.
5. Failure to Retract and Substantive Truth
The thrust of Plaintiffs’ arguments is that the
combination of (I) the fact that Carr’s statements
were factually inaccurate at the time they were made
and (2) Carr’s failure to retract the statements when he
was provided information and evidence that purportedly established the falsity of the statements shows that
Carr made the statements with actual malice. These
arguments, however, are unpersuasive because the
parties disagree about the objective truth of certain
facts. The Court briefly reviews each of these disagreements to explain why Plaintiffs have not met
their burden of establishing that a material fact is in

App.66a
dispute and why there is no issue that should be put
to a jury.
New Jersey precedent on the impact of a retraction, or the failure to publish a retraction, on the actual
malice analysis is sparse. In a matter in which the
publisher issued a retraction, the Appellate Division
noted that a delay in publication of the retraction
“says little, if anything, about the [publisher’s] state
of mind at the time of publication.” Schwartz v.
Worrall Publ’ns, Inc., 610 A.2d 425, 431 (N.J. Super. Ct.
App. Div. 1992). The Appellate Division also noted that:
[T]he failure to promptly retract may be
relevant in evaluating a media defendant’s
motives. However, like evidential factors
concerning journalistic care (or lack thereof),
motive evidence is relevant only circumstantially, and courts must be careful not to
place too much reliance on such factors.

Id. (quoting Harte-Hanks Commc’ns, Inc. v. Connaughton,
491 U.S. 657, 668 (1989)).
Plaintiffs’ arguments regarding retraction are
inextricably intertwined with Plaintiffs’ arguments
regarding the substantive truth about the following
issues: (1) whether Konowicz is a meteorologist, (2)
whether Konowicz is a member of AMS, (3) whether
Konowicz had a team of meteorologists, and (4) whether
Konowicz’s posting regarding visiting United Airline’s
hub was false. The parties’ disagreements on these
issues support the conclusion that Plaintiffs cannot
raise a material dispute of fact with respect to whether
the statements were made with actual malice and,
accordingly, there is no issue for a jury to decide.

App.67a
Konowicz states that his peers consider him a
meteorologist, he has a certification from MSU in
meteorology, and he has over two decades of experience
in broadcast meteorology. (Pls.’ Opp’n Br. 14-15.)
Plaintiffs also proffer Carr’s testimony regarding
Mike Masco, an individual who holds the same MSU
certificate as Konowicz. (Id. 15-16 (citing Jonathan
Carr Dep. Tr. (“Carr Dep.”) 126-130, ECF No. 76-6).)
Carr’s deposition testimony shows that he was aware
of this fact. (Carr Dep. 126:23-127:6.) It also reveals
that in Carr’s personal opinion “because [Masco] lacks
the bachelor’s degree, he’s not a true meteorologist.”
(Id. 128:7-17.) Plaintiffs’ Counsel asked Carr if he ever
contacted Masco to “call him out” about not being a
“meteorologist.” (Id. 128:19-22.) Carr stated that he
“saw no reason to.” (Id. 128:23.)
Plaintiffs construe Carr’s testimony to demonstrate
that “[Carr] singled out [Konowicz], and purposely
sought to discredit him.” (Pls.’ Opp’n Br. 16.) Carr’s
differential treatment of Masco and Konowicz provides
evidence that Carr had ill will or hostility toward
Konowicz. However, “[a]ctual malice has nothing to
do with hostility or ill will. . . . ” DeAngelis, 847 A.2d
at 1270.
The parties’ disagreement over the operative portion of the AMS’s definition of a meteorologist reinforces
the conclusion that Plaintiffs cannot show that Carr
made the statements with actual malice. The AMS’s
guidelines provide, in pertinent part:
A meteorologist is an individual with
specialized education. . . . This specialized education is most typically in the form of a
bachelor’s degree or higher in, or with a
major or specialization in, meteorology or

App.68a
atmospheric science consistent with the AMS
Statement or a Bachelor’s Degree in Atmospheric Science.
There are cases where an individual has not
obtained a degree in meteorology or atmospheric science but has gained sufficient knowledge through coursework and/or professional
experience to successfully fill professional
positions, such as military weather forecasters
or positions held by degreed meteorologists.
These individuals can also be referred to as
meteorologists.
(Compare SUMF ¶ 117, with CDF ¶ 117 (agreeing on
the language of the AMS’s guidelines on the use of
the term “meteorologist”)) Plaintiffs aver that Konowicz
is a meteorologist pursuant to the latter portion of
the definition that allows an individual to be considered
a meteorologist based on coursework and professional
experience. (CDF ¶ 117.) Defendants focus on the
former part of the definition that requires a bachelor’s
degree or higher degree. (Defs.’ Moving Br. 13-15.)
Plaintiffs assert that Defendants were provided with
Konowicz’s professional credentials and a copy of the
AMS’s definition of a meteorologist. (Pls.’ Opp’n Br. 21.)
According to Plaintiffs, Carr’s failure to retract after
receipt of these materials is evidence of Carr’s actual
malice. (Id.) Plaintiffs fail to acknowledge that the
materials provided to Defendants also support Carr’s
reliance on the first portion of the AMS definition to
determine that an individual who lacks a bachelor’s
degree and only has a certificate, like Konowicz, is
not considered a meteorologist pursuant to the AMS
guidelines. Thus, Plaintiffs’ proffered evidence of actual

App.69a
malice also undermines Plaintiffs’ claim of actual
malice.
The parties’ disagreement over whether Konowicz
is a member of AMS also supports dismissal and
undermines Plaintiffs’ arguments. Plaintiffs aver that
Konowicz is a member of AMS and that Defendants
have admitted as such. (Pls.’ Opp’n Br 20; CDF ¶ 141.)
Defendants aver that Konowicz has the same membership that is open to any member of the public and the
same membership as Defendants’ counsel despite his
counsel having zero experience in meteorology. (Defs.’
Moving Br. 16-17; SUMF ¶ 141.) The record shows
that Carr investigated Konowicz’s AMS “membership”
by searching two directories for AMS’s accreditation
programs AMS makes available to the public and
Carr did not locate Konowicz in those directories.
(SUMF ¶¶ 59, 69) Plaintiffs insist that they provided
Defendants with evidence of Konowicz’s AMS membership through the cease and desist letters as well as
through the complaint in this matter and Defendants’
failure to print a retraction is evidence of Carr’s
actual malice. (Pls.’ Opp’n Br. 21 (quoting Carr Dep.
63:15-22).)
Plaintiffs’ evidence regarding Konowicz’s membership in AMS, his providing of the same information to
Defendants, and Defendants’ failure to retract provides
little support to Plaintiffs’ assertion that Carr made
the statements with actual malice. Plaintiffs’ evidence
shows that they provided some objective evidence
to Carr that Konowicz holds at least one type of
the several types of membership or accreditation
AMS offers, Plaintiffs’ proffer, however, fails because
the evidence does not reflect that Carr knew of
Konowicz’s membership at the time the statements

App.70a
were made, nor does it undercut the results of Carr’s
contemporaneous investigation into the AMS directories.
Plaintiffs’ evidence regarding Konowicz’s “team”
of meteorologists also provides scant support for actual
malice. Konowicz proffers evidence that he employed
two independent meteorologists, Aeris (a company
that directly employs meteorologists), a photographer,
and a designer. (See Pls.’ Opp’n Br. 21-23.) Accepting
all of this as true and that this group of individuals
constitutes a “team”, the evidence of these employment
relationships only came out during discovery in this
matter. Plaintiffs provide no evidence that Carr would
have known of this evidence at the time he made the
statements. Because the evidence regarding Konowicz’s
“team” of meteorologists was disclosed in the midst of
the instant litigation, the evidence does little to show
what Carr’s mental state was at the time he made the
statements. That Carr has failed to retract the statements in the midst of litigation does little to help
Plaintiffs to meet their burden of establishing that
there is a material fact in dispute regarding actual
malice.
Plaintiffs argue that four photographs attached
to the February 6, 2016 cease-and-desist letter and
Carr’s failure to retract certain statements in light of
those photos is further evidence of Carr’s actual
malice, (Pls.’ Opp’n Br. 23-24.) Specifically, Plaintiffs
argue that the photos rebut the February 2015
Statements because they show that Konowicz actually
visited United Airlines in Chicago. (Id.) Defendants
argue that prior to making the February 2015 Statement, Carr searched and found similar images on
Google and that the photos Plaintiffs have provided

App.71a
“are merely evidence that [Konowicz] was at some
airport at some time for some purpose.” (Defs.’ Moving
13r. 19-20.) Plaintiffs argue that Defendants admit
that Carr could have updated the February 2015
Statements after receiving the photos. (Pls.’ Opp’n
Br. 23.) The fact that Carr could have adjusted his
posts after receiving countervailing evidence months
after the fact is significantly undercut by Carr’s
testimony that he continued to entertain doubts
about what Plaintiffs’ proffered images purported to
show. (See Carr Dep 43:7-9 (stating “If I had to go
back and supplement my tweet I would say, oh look,
another photograph with no direct proof.”).)
In sum, when the statements at issue are
analyzed individually and in the larger context of
whether the statements were factually accurate,
Plaintiffs have not raised a genuine dispute of material
fact sufficient regarding whether Carr made the
statements at issue with actual malice. In Plaintiffs’
view, large portions of the statements were factually
false and this, and other factors, establish that the
statements were made with actual malice. The record
evidence reflects that Carr made the statements
believing that they were true at the time. Defendants
have proffered evidence showing that Carr continues
to believe the statements. Plaintiffs have not pointed
the Court to any evidence rebutting those assertions.
Plaintiffs’ theories that Defendants’ ill will, failure to
inquire with Plaintiffs regarding the truth of the
posts, and failure to retract after the fact are undercut
by the fact that Carr investigated prior to making
certain statements and continues to believe in the
truth of certain statements. For these reasons, the
Court concludes that Plaintiffs have failed to demon-

App.72a
strate a genuine dispute of material fact regarding
whether the statements at issue were made with actual
malice.
C. Carr’s Statements Are Not Commercial Speech
When deciding whether speech is commercial, “the
Third Circuit requires courts to assess whether the
speech (i) is an advertisement, (ii) refers to a specific
product or service, and (iii) whether the speaker has
an economic motivation for the speech.” Golo, LLC, 310
F. Supp. 3d at 504 (citing Facenda v. N.F.L. Films,
Inc., 542 F.3d 1007, 1017 (3d Cir. 2008)). “An affirmative answer to all three questions provides ‘strong
support’ for the conclusion that the speech is commercial.” Facenda, 542 F.3d at 1017 (quoting U.S. Healthcare, Inc. v. Blue Cross of Greater Phila., 898 F.2d 914,
933 (3d Cir. 1990)). “Stated succinctly, the commercial
speech doctrine rests heavily on ‘the common sense
distinction between speech proposing a commercial
transaction . . . and other varieties of speech.’” U.S.
Healthcare, Inc., 898 F.2d at 933 (quoting Zauderer
v. Office of Disciplinary Counsel, 471 U.S. 626, 637
(1985)).
In discussing the Lanham Act, the parties cite
Edward Lewis Tobinick, MD v. Novella (Tobinick), a
case from the Eleventh Circuit Court of Appeals. 848
F.3d 935 (11th Cir. 2017), cert. denied sub nom.,
Tobinick v. Novella, 138 S. Ct. 449 (2017). In Tobinick,
both parties were doctors, one of whom invented a novel
treatment procedure and administered said procedure
to patients. Id. at 936. The defendant published an
article detailing: (1) how he learned of the plaintiff’s
treatment procedures, (2) “the typical characteristics
of ‘quack clinics’ or ‘dubious health clinics,’ [(3)] the

App.73a
key features of [the plaintiff’s] clinic, and [(4)] lastly,
the plausibility of and the evidence supporting [the
plaintiff’s] allegedly effective use of a certain drug.
Id. at 940. The defendant also quoted a Los Angeles
Times article which reported that the plaintiff’s
“claims about the back treatment led to an investigation by the California Medical Board, which placed
him on probation for unprofessional conduct and
made him take classes in prescribing practices and
ethics.” Id. After the plaintiff filed a complaint
against the defendant in the District Court for the
Southern District of Florida, the defendant published
another article detailing the lawsuit and argued that
the suit was “designed to silence his public criticism
of [plaintiff s] practices.” Id. at 941. The defendant
was the executive editor of, and contributor to, a blog
operated by a non-profit entity. Id. at 940.
The Eleventh Circuit found that the defendant’s
statements were not actionable under the Lanham
Act. Specifically, the Court of Appeals concluded that
there was “no genuine dispute of material fact regarding
whether [the defendant’s] articles are commercial
speech[,]” because a “plain reading of the first and
second articles makes clear that they do not fall
within the core notion of commercial speech as they
do not propose a commercial transaction.” Id. at 950.
Moreover, the “articles evoke many characteristics of
noncommercial speech[,]” as they “communicate[ ]
information, express[ ]opinion, [and] recite[ ] grievances.” Id. (quoting N.Y Times Co., 376 U.S. at 266).
In the instant matter, Defendants argue that the
Court should grant summary judgment in their favor
because the Eleventh Circuit’s analysis in Tobinick
applies. (Defs.’ Moving Br. 25.) Specifically, Defend-

App.74a
ants argue that a “plain reading” of Carr’s statement
makes clear that the statements were not commercial
speech. (Id.) Defendants also assert that “Carr is not
in the weather business; it is just his hobby.” (Id. at
22.)
Plaintiffs oppose the grant of summary judgment
arguing that Tobinick is materially distinguishable
from the instant matter. (Pls.’ Opp’n Br. 24.) First,
Plaintiffs argue that Carr’s statements are “merely
personal attacks on Plaintiff[s,]” and “not entitled to the
same level of protection, as the statements in Tobinick.”
(Id. at 25.) Plaintiffs further argue that the parties in
Tobinick were not competitors, while, here, “[Konowicz]
is [Carr’s] largest competitor in New Jersey.” (Id.)
Plaintiffs insist that in the March 2015 Statements,
Defendants solicited Plaintiffs’ followers, and in the
June 2015 Article, Carr promoted himself. (Id.) Plaintiffs refute Defendants’ “just a hobby” argument by
arguing that Carr has an economic motivation for
attempting to discredit Plaintiffs and increase Carr’s
own online profile. (Id. at 26.)
The Court agrees with Defendants that a plain
reading of the statements makes clear that the statements are not commercial speech. Neither the December 2014 Statement nor the February 2015 Statements
refer to a specific product or service nor do they
propose a commercial transaction. As Plaintiffs
concede, these statements are closer to personal
attacks on Plaintiffs. (Pls.’ Opp’n Br. 25.) Moreover,
these statements communicated information—the
Weatherboy’s real name—and expressed opinion—
that Konowicz had a “fake audience,” was a “total
fraud,” and not a member of AMS. See N Y. Times
Co., 376 U.S. at 266. These statements, accordingly,

App.75a
are not commercial speech. Id.; Tobinick, 848 F.3d at
950.
The content of the March 2015 Statements and
the June 2015 Article require a more fulsome analysis.
The March 2015 Statements are not an advertisement
in the traditional sense. Nevertheless, Carr’s statement,
“For real unparalleled trust and reach see . . . my page,”
is the sort of comparative language that is usually
found in commercial advertisements. Moreover, by
referring to his own webpage, Carr specifically referenced the service he provides—weather forecasts
through his webpage and social media outlets. The
June 2015 Article was posted on Defendants’ website
and contains negative descriptions of Plaintiffs followed
by a positive description of Carr and Defendants’
website. Arguably, these statements satisfy the three
factors the Supreme Court set out in Bolger v. Youngs
Drug Products Corp., 463 U.S. 60, 66-67 (1983), which
are: (1) if the speech at issue was “conceded to be
advertisements”, (2) the statement included a “reference
to a specific product”, (3) and if the speaker had an
“economic motivation” for making the statement. Id.
If all of these factors are satisfied, there is “strong
support for [a] District Court’s conclusion that the
[speech is] properly characterized as commercial
speech.” Id. at 67.
Here, as in Tobinick, the Court finds that Plaintiffs’
implied theory regarding Defendants’ economic motivation is too attenuated to establish economic motivation
in the commercial speech context. Plaintiffs have not
identified any evidence in the record to establish
Carr’s economic motivation. The record, nevertheless,
does reflect that Defendants generated revenue from
Defendants’ website. (Carr Dep. 117:9-122:17.) To

App.76a
the extent Plaintiffs’ theory is that Defendants derive
revenue from driving viewers to Defendants’ website,
this theory is insufficient. As the Tobinick Court
stated, “the placement of . . .articles next to revenuegenerating advertising [is] [in]sufficient in this case
to show a liability-causing economic motivation. . . . ”
Tobinick, 848 F.3d at 952.
Both advertising and subscriptions are typical
features of newspapers, whether online or inprint. But, the Supreme Court has explained
that “if a newspaper’s profit motive were
determinative, all aspects of its operations—
from the selection of news stories to the
choice of editorial position—would be subject
to regulation if it could be established that
they were conducted with a view toward
increased sales. Such a basis for regulation
clearly would be incompatible with the First
Amendment.”

Id. (quoting Pittsburgh Press Co. v. Pittsburgh Comm’n
on Human Relations, 413 U.S. 376, 385 (1973)). The
Court, accordingly, concludes that the March 2015
Statements and June 2015 Article were not commercial speech, and, as a result, they are not actionable
under the Lanham Act.
The Court further finds that based on its findings
related to Plaintiffs’ Lanham Act Claim, Defendants
are entitled to Summary Judgment on Plaintiffs’
Unfair Competition Claim. See Buying for The Home,
LLC v. Humble Abode, LLC, 459 F. Supp. 2d 310,
317 (D.N.J. 2006) (“Because the elements of a claim
of unfair competition under the Lanham Act are the
same as for claims of unfair competition and trademark
infringement under New Jersey statutory and common

App.77a
law, the [c]ourt’s analysis . . . extends to [p]laintiff’s
state law claims as well.”); see also Bracco Diagnostics,
Inc., 627 F. Supp. 2d at 454 (stating “unfair competition
claims under New Jersey statutory and common law
generally parallel those under § 43(a) of the Lanham
Act.”).
V.

Conclusion

For the reasons set forth above, the Court finds
that Plaintiffs have failed to raise a genuine dispute
of material fact regarding whether Carr made the
December 2014 Statement, the February 2015 Statements, the March 2015 Statements, and published the
June 2015 Article with actual malice. The Court also
finds that these statements are not commercial speech,
and, as a result, the statements are not actionable
under the Lanham Act and do not support a New
Jersey common law unfair competition claim. Defendants, accordingly, are entitled to summary judgment
and the Court grants Defendants’ motion. An order
consistent with this Memorandum Opinion will be
entered.
/s/ Michael A. Shipp
United States District Judge
Dated: May 31st, 2019

App.78a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF NEW JERSEY
GRANTING DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT
(MAY 31, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL KONOWICZ, A/K/A
MICHAEL PHILLIPS, and ISARITHIM LLC,

Plaintiffs,
v.
JONATHAN P. CARR; SEVERE NJ
WEATHER, LLC, and WEATHER NJ, LLC,

Defendants.
________________________
Civil Action No. 15-6913 (MAS) (TJB)
Before: Michael A. SHIPP,
United States District Judge.
This matter comes before the Court upon Defendants Jonathan P. Carr, Severe Weather, LLC, and
Weather NJ, LLC’s (collectively, “Defendants”) Motion
for Summary Judgment. (ECF No. 75.) Plaintiffs
Michael Konowicz a/k/a Michael Phillips and Isarithm,
LLC (collectively, “Plaintiffs” opposed (ECF No. 90),
and Defendants replied (ECF No. 82).

App.79a
For the reasons set forth in the accompanying
Memorandum Opinion, and other good cause shown,
IT IS on this 31st day of May, 2019 ORDERED
that:
1.

Defendants’ Motion for Summary Judgment
(ECF No. 75) is GRANTED.

2.

The accompanying Memorandum Opinion
shall remain filed under temporary seal until
Plaintiffs’ Motion to Seal (ECF No. 86) is
decided.
/s/ Michael A. Shipp
United States District Judge

App.80a
ARTICLE BY JONATHAN CARR
IN WEATHERNJ.COM
(JUNE 25, 2015)
BEWARE OF THE FAKE “TEAM OF METEOROLOGISTS”
By: Jonathan Carr
June 25, 2015, 19:15

I’ve kept my mouth shut about this for a while
now but after Tuesday’s blatant (not the first) attack
on me, it’s time to reveal some painful truth. This is
not a NJ weather-related post so don’t waste your
time if that’s what you are looking for. However, if
you like drama then make some popcorn and pull up
a chair.
Weatherboy’s Attack
While storm chasing Tuesday on Long Beach
Island, NJ I got caught in some pretty damaging
severe winds. I saw, with my own eyes, what appeared
to be rotation. This, after observing several tornado
warnings by the NWS for PA and SWNJ in-alignment
with LBI, as well as numerous pics and reports, led
me to believe that the sky was indeed capable of
producing a tornado. In my own error, I posted a
picture that was submitted by a credible source of

App.81a
what appeared to be a tornado—with the caption
“Tornado Footage.” The area where the pic was
taken was tornado-warned and rotation was visible
on advanced radar software, specifically GRLevel3
and GR2Analyst. Hindsight is always 20-20 but
moving forward I’ll use terminology like “possible
tornado footage” instead of “tornado footage” before
official NWS confirmation. Lesson learned.
Weatherboy saw this opportunity to pounce on
my mistake and post the following:

Weatherboy Weather

App.82a
SOCIAL MEDIA POST TRANSCRIPTION
While some things may look like tornadoes
they may simply be harmless clouds in the
sky. Trust only the confirmation reports from
the National Weather Service about actual
tornadoes—do not trust untrained amateurs
in social media that claim otherwise, as this
photograph shows.
The National Weather Service office in Mount
Holly, NJ, will survey, if needed, storm
damage in southern NJ to determine whether
or not any tornado touched down. It appears
most damage and damage reports in New
Jersey today were the result of straight-line
winds that were blowing at or greater than
hurricane force in the area. The National
Weather Service can identify different calling
cards left by tornadoes to determine if any
actually touched down.
If a tornado actually touched down, the
National Weather Service will release their
findings in a report that describes the
intensity and path of such an event.
What’s funny are the comment reactions to his
own attack post. Also, the NWS confirmed a waterspout
in the LBI region. I believe this is called a backfire.

App.83a

SOCIAL MEDIA POST TRANSCRIPTION
Colleen Andrus Boyce: So you already have
determined that this was not a tornado and
you haven’t waited to hear “the national
weather services findings”. Hmmmm!
David Funkhouser Jr.: Shots fired at
WeatherNJ
Weatherboy Weather: We’re glad to see the
National Weather Service take a stand
against them.
Kimberly Leach: Where does it show the NWS
taking a stand . . . I only see you.
Weatherboy Weather: Kimberly Leach the
National Weather Service was very vocal in
calling out twitter.comWeatherNJ for spreading harmful misinformation.
WeatherboyWeather: Chris Nixon no one is
putting down any meteorologist. We’re simply
relaying information from the National

App.84a
Weather Service in which they describe how
tornadoes are officially measured/recorded/
reported . . . and how they determined that
this picture was not of a tornado. As we
write above, it’s likely a scud cloud which
many confuse with tornadoes. Scud clouds
typically follow severe storms . . . although are
harmless on their own.
Chris Nixon: Your stating in this post and
in your replies not to listen or trust amateur
meteorologists which all these little Facebook weather groups are at least to me they
are. He should of said possible tornado like
Fox News did then this post would of never
come about and I can understand that. Just
sounds like to me a personal attack using
social media. You could of and should of just
posted picture stating you don’t believe or I
know this is not a tornado. More people
would interact to that heading then this post
and pissing off some of your viewers as most
people use both you’s and more Facebook
weather outlets.
Colleen Andrus Boyce: But weatherboy just
said we should wait to hear the national
weather service findings, yet he made an
assumption already. Yet you will dismiss
eye witness accounts. Unbelievable!!
Brayden Fahey: Your intent was likely
sincere. Your delivery missed the mark . . .
Chris Kakas: I saw what looked like a swirling
moving vortex and felt it too. Sorry my
photo was too amateur for you. I certainly

App.85a
wasn’t sticking around to find out of it was
the real deal or if it touched down cause I
was scared to death. Took the shot and ran
the opposite direction back into my house.
Chris Kakas: And when the EBS went off on
my TV and mobile devices saying Tornado
take shelter immediately . . . Is that not a
national or local weather service?
So the National Weather Service is taking a stand
against me? This almost made me spit my drink on the
laptop screen. If Weatherboy is referring to the synoptic
discussion that NWS Mt. Holly’s Gary Szatkowski
had with me well that’s just funny. As pictured, one
of his own fans recognized that this was a personal
attack on me and not a general post whatsoever. The
relationship between the NWS and Weather NJ
couldn’t be better and there are no “alleged repremands” to me from the NWS. Try to find a single
tweet from the NWS suggesting such. Just personal
conversation with Gary’s personal twitter account:

App.86a
SOCIAL MEDIA POST TRANSCRIPTION
WeatherNJ @myWeatherNJ: Craziest storm
video I’ve seen yet from yesterday. From
Gibbstown, NJ
Gary Szatkowski @GarySzatkowski: @my
WeatherNJ Great video. And best dialogue for
this event. Girl: There’s your dad. Guy:
Keep going.
I feel bad for the citizen who captured the cloud
during severe conditions. As also pictured above, he
actually felt attacked himself by weatherboy. As
another citizen, who works for Hunterdon County
OEM, states, his delivery missed the mark. The bottom
line . . . this post was a poor effort to put someone
down and very unprofessional. I would never engage
in such an attack but you can be sure as hell I’ll
defend myself.
Who Weatherboy Pretends to Be
Weatherboy states that they are a team of professional meteorologists with many years of experience.
To this day, he has yet to reveal the names or credentials of his “professional team of meteorologists.”
He has taken creative measures to fake his story
including bogus classroom visits and dis honest
campaigns . . . none of which again, state names or
credentials. He constantly posts shock-factor articles
and videos for traffic-bait but slams others for posting actual weather observations.
The American Meteorological Society (AMS)
currently has zero-evidence of him despite his proposed
trip to the AMS convention last year. He actually
snapped a pic of the departure monitors in the airport

App.87a
and posted it with the caption, “On the way to national
AMS convention.” Later that day his own neighbor
informed me that he left for vacation to the Dominican
Republic . . . lol
Who Weatherboy Really Is
He goes by a radio stage name of Michael Phillips.
At least for a while I thought that was his name
until I received the following messages from my own
fans. I was still Severe NJ Weather at the time and
Weatherboy had just posted an article pointing out
how many meteorologists were wrong about snowfall
totals (shocking). His own neighbors and schoolmates
came to me with this information:

SOCIAL MEDIA POST TRANSCRIPTION
Severe NJ Weather: His real name is
Michael Phillips
XXXXXX: No it isn’t . . . That’s his stage
name for working at his radio station. I went
to high school with him. He was on letterman as a kid because he invented a weather
station in his backyard. His real name is
Michael Konowicz . . .

App.88a
XXXXXX: Yeah but he won’t. He is just
stomping his feet like a two year old
because you got more love than he did about
this storm. When he was in elementary
school he was doing the same thing that you
do now “forecast and predict when u are no:
properly trained” don’t think he had a degree
to forecast weather in the fifth grade lol
XXXXXX: His name is Michael Konowicz.
He grew up in Monroe twp, NJ in Middlesex
county . . .
He is currently on vacation in the Dominican
republic lol
And I am pretty sure he is 40 years old and
graduated high school in 1991.
So I did some research and found the facebook
page for Michael Konowicz. Under the about section
for Michael Konowicz, a website was listed for
“weatheronline.com.” I then noticed that Weatherboy
listed weatherboy.com on his facebook about section.
So after visiting weatherboy.com and viewing the
HTML page source, I found that the following HTML
code:

App.89a
His LinkedIn page also listed the same web site.
Deduce what you will but the following is, in-fact,
true: Weatherboy, at the age of 5 helped build a
weather station in his back yard. For this effort he
was hosted by the Letterman show. Ever since, he
was dubbed the weatherboy. He also claims years of
broadcasting experience but good luck getting specifics
on that. Regardless, he has yet to reveal his identity
publicly or any meteorological credentials.
Who I Pretend to Be
[data does not exist]
Who I Am
My name is Jonathan Carr. I graduated with a
bachelor’s degree in computer science and information
systems from Stockton University. My primary career
is in software development and systems engineering.
I have no formal education in meteorology and I wear
that proudly on my sleeve. My entire atmospheric
knowledge-base is self-taught and under the wing of
some good friends who are professional meteorologists
(EPAWA FTW)! I learn more and more every day,
from both success and failure, and plan to acquire
formal education in meteorology some day.
I started Severe NJ Weather in February of 2010
simply to inform the public, through actionable discussion, of major storm systems that were out of local
forecast reach. Weather safety information/ aggregation was my primary intended function. I was able to
alert the public well in-advance about the 2010-2011
blizzards, Hurricane Irene, the Halloween Snow Storm
of 2011, the 2012 Derecho, the 2012 Freehold Microburst, Superstorm Sandy, the Polar Vortex influence

App.90a
of 2013/2014, and many other smaller-impact storm
systems to date.
In 2014 I re-branded as Weather NJ with a
centralized web presence. Today I represent the largest
independent weather reporting agency in the State of
New Jersey. My collective social media following of
215k+ over multiple social media platforms is 100%
organic of which I am VERY proud of! My website
has been visited 5.4 million times since launch last
July from over 170 countries around the world—from
6 of 7 continents (due to international airport travel
weather interest—PHL/EWR/JFK/LGA). PS: if you’re
in Antarctica, please visit somehow!
I was voted 2014 Citizen Journalist of the Year
by the Citizen’s Campaign as well as featured in many
traditional media articles. I’m followed by the governor,
senators, state and national congressmen, multiple
OEM/EMS/law enforcement organizations, over 60
professional network meteorologists and reporters in
the New York/Philadelphia metropolitan areas, and
a handful of celebrities. Although this feels amazing
now, I expect to continue solid growth as New Jersey’s
#1 trusted weather site. I’m not going anywhere!

App.91a

Weatherboy’s Strange Obsession with Me
Last winter, Jeff Edelstein of the Trentonian
wrote an article about my rising popularity. Immediately afterwards, Weatherboy practically harassed
Jeff Edelstein because I was chosen for the article
over him. Ever since then, there has been a creepy
obsession detected. You all know my KABOOOM
phrase that I used many times in 2013/2014 and also
above. Well this past winter, Weatherboy posted the
following image before a predicted snow storm:
Creepy, right? The evidence leads me to believe
that he’s been waiting for me to slip up. Therefore
Tuesday’s tornado image post must of been his lucky
day. Or not.
Weatherboy’s Fake Audience
After Sandy my following leveled off at around 80k
on facebook. Weatherboy’s following topped out at
around 30k. Soon after, Weatherboy’s followership
increased dramatically to where it is today. The growth
was achieved during normal boring dry weather conditions. I found this to be bizarre. One day a fan

App.92a
messaged me and told me to check out his about section, specifically the “likes” part. What did it reveal?

His most popular city was listed by facebook as
Cairo, Al Qahirah, Egypt and his most popular demographic was listed by facebook as 18-24 years old.
This was when I began suspecting that he might
have purchased most of his audience through various
“buy likes now” sites. Bizarre cities and unlikely
demographics are normally giveaways for big facebook
sites who purchase their likes (fake profiles) to simulate
large presences. Obviously Egypt is not a reasonably
valid location as most of his posts are about the
United States. Also, the 18-24 year old demographic
is statistically the least interested demographic in
weather. My most popular age group is 35-55 and
68% female . . . how real weather site demographics
should look. Also I was wondering why there were so
few comments on his posts in comparison to mine. I
also noticed that he likes to sponsor a lot of his posts

App.93a
in-attempt to fake high engagement. Based on his
actual engagement of his non-sponsored posts, I
would estimate his true following size to be 30-40k.
Keep in mind that busiest cities and age groups
refresh every few weeks based on who is actually
engaging with the page. So his data now will show a
US city. This screenshot was taken during the period
that his facebook page blew up in likes and therefore
reflected the most active city at the time.
What Weatherboy Will Now Do
It’s a shame I’ve had to but I’ve noticed a few
trends in how Weatherboy fakes his presence.
First, he mght [sic] delete the post he made about
me on Tuesday, especially after my most loyal fans
begin making numerous comments on the post. Here
is the link to it. Once this link stops working, you
know what happened lol (https://www.facebook.com
/theWeatherboy/photos/a.261480430121.304779.12758
3470121/10155838856115122/?type=1&theater) That’s
why I took screen shots (above).
If he doesn’t delete the post then he will likely
delete your comments (on the post and on his page in
general) and ban you. Take screenshots of your comments if you think I’m kidding. Post them on my
page before or after he deletes them, only if you wish.
Also, if he does not delete, he will likely bury the
post with new articles about random traffic-bait
headlines.
He will insist that his page represents real
meteorologists with formal educational credentials in
meteorology. He will not, however, give the names of
real people. He will likely also reference years of

App.94a
broadcasting experience in the greater Philadelphia
area. He might even try to post vague images that he
“thinks” will prove his story. Again, he will not give
specifics. He will try his hardest for you to walk away
believing the “professional team of meteorologists”
story.
He will change the subject in his comment
responses to vague “lip-service style” condescending
remarks. Again, unfortunately I’ve observed his style
enough to predict his actions. This is the 3rd or 4th
time this has happened.
Conclusion
I thought very long and hard about whether to
write this article or not. This is not the first time he
has done something like this. Also, the idea that
some people actually believe his story makes me
nauseous. It’s very dishonest and manipulative. Thank
you for listening to my side of story. Stay safe and
properly informed New Jersey! JC

